Office of Inspector General Components

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:


Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.


Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.


Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.


Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
A Message From the Office of Inspector
General
Purpose

The Department of Health and Human Services (HHS), Office of Inspector General (OIG), is
pleased to present the “Compendium of Unimplemented Office of Inspector General
Recommendations” (Compendium). The purpose of the Compendium is to combine significant1
unimplemented monetary and nonmonetary recommendations addressed to the Department into
one publication2 for interested parties to obtain information about outstanding recommendations,
which, if implemented, have the potential to result in cost savings and improvements to program
efficiency and effectiveness. OIG recommendations stem from audits and evaluations that have
been performed pursuant to the Inspector General Act of 1978 (P.L. No. 95-452), as amended.
Recommendations may require one of three types of actions: legislative, regulatory, or
administrative. Some complex issues may involve two or three types of actions.
As part of its effort to track unimplemented recommendations, OIG performs routine followup
with the Department to determine the status of actions that have been taken to implement the
recommendations. This publication includes information about recommendations that had not
been implemented as of December 31, 2007.
Organization

The Compendium is divided into a monetary recommendations section and a nonmonetary
recommendations section. Within each section, new recommendations are featured first,
followed by those that have been pending from earlier time periods. The sections are further
subdivided by program type, as follows:
     •     Centers for Medicare & Medicaid Services (CMS) – This section describes
           unimplemented recommendations focusing on programs administered by CMS, including
           Medicare, Medicaid, and the State Children’s Health Insurance Program (SCHIP). These
           programs, which account for most of the majority of HHS’s budget, provide medical care
           coverage for senior citizens, people who have disabilities or who are economically
           disadvantaged, and children whose families have limited income.
     •     Public Health and Human Service Programs and Departmental Issues –This section
           describes unimplemented recommendations addressing programs administered by:




1 The Compendium does not include all unimplemented OIG recommendations. For example, it does not include recommendations addressed to
specific non-Federal entities or recommendations that involve sensitive security issues.
2 In March 2007, OIG issued the first edition of the Compendium, which compiled significant unimplemented recommendations as of
December 31, 2006. In prior years, OIG compiled unimplemented monetary recommendations and unimplemented nonmonetary
recommendations in the “Red Book” and “Orange Book,” respectively.
           o Public health agencies, such as the Centers for Disease Control and Prevention
             (CDC), the Food and Drug Administration (FDA), the Health Resources and
             Services Administration (HRSA), Indian Health Service (IHS), and the National
             Institutes of Health (NIH). These divisions promote biomedical research and
             disease cure and prevention; ensure the safety and efficacy of marketed food,
             drugs, and medical devices; and conduct other activities designed to ensure the
             general health and safety of Americans.
           o Human service agencies, such as the Administration for Children and Families
             and the Administration on Aging. Programs of these agencies provide Federal
             direction and funding for State-administered efforts designed to promote stability,
             economic security, responsibility, and self-support for the Nation’s families and to
             establish comprehensive community-based systems to help maintain the dignity
             and quality of life.
   •   Also included in this section are departmentwide issues, such as financial accounting,
       information systems management, and oversight of grants and contracts.
An online version of this document is located at http://oig.hhs.gov/publications.html. If you
have questions about this publication, please contact OIG’s Office of External Affairs at
202-619-1343.
To report potential instances of waste, fraud, or abuse related to HHS’s programs, you may file a
report with the OIG Hotline at 1-800-HHS-TIPS (1-800-447-8477) or HHSTips@oig.hhs.gov.
Priority Recommendations
Below is a list of unimplemented recommendations that we refer to as “priority
recommendations” because in our view they represent the most significant opportunities to
positively impact HHS’s programs. The recommendations are not presented in order of priority.
The priority recommendations are composed of both monetary and nonmonetary
recommendations, representing various timeframes. The list comprises three categories—
savings, integrity and efficiency, and quality of care—that reflect OIG’s mission to ensure the
appropriate expenditure of Federal dollars; protect the integrity of HHS’s programs against
waste, fraud, and abuse; improve program efficiency; and protect the health and safety of
program beneficiaries.
Savings
   •   Ensure Durable Medical Equipment Suppliers’ Compliance With Medicare Standards,
       savings to be determined (TBD) (p. 2)
   •   Modify Payment Policy for Medicare Hospital Bad Debts, estimated savings
       $340 million (p. 8)
   •   Reduce the Rental Period for Medicare Home Oxygen Equipment, savings $5 billion
       (p. 12)
   •   Modify Payments to Managed Care Organizations, estimated savings $1.97 billion (p. 21)
   •   Place a Ceiling on Administration Costs Included in Managed Care Organizations’ Rate
       Proposals, savings TBD (p. 22)
   •   Limit Enhanced Payments to Cost and Require That Medicaid Payments Returned by
       Public Providers Be Used To Offset the Federal Share, estimated savings
       $120 million (p. 23)
   •   Address and Resolve Excessive Medicaid Disproportionate Share Hospital Payments,
       savings TBD (p. 25)
   •   Ensure That Medicaid Reimbursement for Brand-Name and Generic Drugs Accurately
       Reflects Pharmacy Acquisition Costs, estimated savings $1.08 billion for brand-name
       drugs (p. 26) and $470 million for generic drugs (p. 27)
   •   Establish Connection Between the Calculation of Medicaid Drug Rebates and Drug
       Reimbursement, savings TBD (p. 28)
Integrity and Efficiency
   •   Improve Centers for Medicare & Medicaid Services Performance Evaluation Process for
       Program Safeguard Contractors (p. 56)
   •   Update and Maintain an Accurate New Drug Code Directory (p. 64)
   •   Improve Food and Drug Administration Postmarketing Oversight of Drugs (p. 65)
Quality of Care
   •   Improve Oversight of Medicare Hospices (p. 37)
   •   Strengthen Food and Drug Administration Oversight of Clinical Investigators (p. 63)




Priority Recommendations                                                                      iii
Table of Contents

Office of Inspector General Components.................................. 1
  A Message From the Office of Inspector General.................................................... i

  Priority Recommendations ...................................................................................... iii

Table of Contents......................................................................... iv
New Monetary Recommendations.............................................. 1
  Medicare and Medicaid ............................................................................................. 1

  Medicare Hospitals.................................................................................................... 1
   Adjust Medicare Outpatient Outlier Payments .....................................................................1

  Medicare Durable Medical Equipment ..................................................................... 2
   Ensure Durable Medical Equipment Suppliers’ Compliance With Medicare Standards........2

Previous Monetary Recommendations...................................... 4
  Medicare and Medicaid ............................................................................................. 5

  Medicare Hospitals.................................................................................................... 5
   Continue Mandated Reductions in Hospital Capital Costs....................................................5

  Medicare Hospitals.................................................................................................... 6
   More Accurately Reflect Base-Year Costs in Prospective Payment System’s Capital Cost
   Rates ...................................................................................................................................6

  Medicare Hospitals.................................................................................................... 7
   Revise Graduate Medical Education Payment Methodology ................................................7

  Medicare Hospitals.................................................................................................... 8
   Modify Payment Policy for Medicare Hospital Bad Debts ...................................................8

  Medicare Hospitals.................................................................................................... 9
   Recover Overpayments and Expand the Diagnosis-Related Group Payment Window..........9

  Medicare Hospitals.................................................................................................. 10
   Adjust Base-Year Costs in the Prospective Payment System for Hospital Outpatient
   Department Services..........................................................................................................10

  Medicare Nursing Homes........................................................................................ 11
   Monitor the Quality and Appropriateness of Consecutive Medicare Stays .........................11

  Durable Medical Equipment.................................................................................... 12
   Reduce the Rental Period for Medicare Home Oxygen Equipment ....................................12
Table of Contents                                                                                                                  Page iv
  End Stage Renal Disease........................................................................................ 13
    Reduce Medicare End Stage Renal Disease Payment Rates ...............................................13

  Medicare Reimbursement ....................................................................................... 14
   Review Payment Levels and Reinstate Beneficiary Cost Sharing for Laboratory Services .14

  Medicare Reimbursement ....................................................................................... 16
   Require Physician Examination Before Ordering Home Health Services ...........................16

  Medicare Reimbursement ....................................................................................... 17
   Ensure Appropriateness of Medicare Payments for Mental Health Services.......................17

  Other Medicare Reimbursement ............................................................................ 19
    Reduce Improper Medicare Payments for Allergen Immunotherapy ..................................19

  Other Medicare Reimbursement ............................................................................ 20
    Reduce Improper Use of Modifier 59 To Bypass Medicare’s National Correct Coding
    Initiative Edits ...................................................................................................................20

  Medicare Managed Care.......................................................................................... 21
   Modify Payments to Managed Care Organizations ............................................................21

  Medicare Managed Care.......................................................................................... 22
   Place a Ceiling on Administrative Costs Included in Managed Care Organizations’ Rate
   Proposals...........................................................................................................................22

  Medicaid Reimbursement ....................................................................................... 23
   Limit Enhanced Payments to Cost and Require That Medicaid Payments Returned by Public
   Providers Be Used To Offset the Federal Share .................................................................23

  Medicaid Reimbursement ....................................................................................... 24
   Ensure Compliance With Requirements for Medicaid School-Based Health Services ........24

  Medicaid Reimbursement ....................................................................................... 25
   Address and Resolve Excessive Medicaid Disproportionate Share Hospital Payments.......25

  Medicaid Reimbursement ....................................................................................... 26
   Ensure That Medicaid Reimbursement for Brand-Name Drugs Accurately Reflects
   Pharmacy Acquisition Costs ..............................................................................................26

  Medicaid Reimbursement ....................................................................................... 27
   Ensure That Medicaid Reimbursement for Generic Drugs Accurately Reflects Pharmacy
   Acquisition Costs ..............................................................................................................27

  Medicaid Drug Rebates ........................................................................................... 28
   Establish Connection Between the Calculation of Medicaid Drug Rebates and Drug
   Reimbursement .................................................................................................................28

  Medicaid Drug Rebates ........................................................................................... 29
   Implement an Indexed Best-Price Calculation in the Medicaid Drug Rebate Program........29


Table of Contents                                                                                                                Page v
  Other Medicare and Medicaid Issues..................................................................... 30
    Establish a National Medicaid Credit Balance Reporting Mechanism ................................30

  Public Health............................................................................................................ 31

  Health Resources and Services ............................................................................. 31
   Eliminate Excessive Costs in the 340B Drug Discount Program ........................................31

  Aging ........................................................................................................................ 33
   Use Voluntary Contributions To Expand Services for the Elderly......................................33

  Departmentwide and Cross-Cutting Issues .......................................................... 34
   Advise States of Their Authorities To Collect From Noncustodial Parents With the Ability
   To Contribute Towards Their Children’s Medicaid or State Children’s Health Insurance
   Program Costs ...................................................................................................................34

New Nonmonetary Recommendation ...................................... 36
  Medicare and Medicaid ........................................................................................... 37

  Hospice..................................................................................................................... 37
   Improve Oversight of Medicare Hospices..........................................................................37

  Other Medicare and Medicaid Issues..................................................................... 38
    Increase Medicaid Fraud Referrals ....................................................................................38

  Medicaid Drugs........................................................................................................ 39
   Review Impact of New Federal Upper Limit Calculations .................................................39

  Medicaid Drugs........................................................................................................ 40
   Assess the Use of New Drug Pricing Data in the Medicaid Program..................................40

  Health Resources and Services ............................................................................. 41
   Improve U.S. Public Health Service Commissioned Corps Response Operations for Future
   Public Health Emergencies................................................................................................41

  Health Resources and Services ............................................................................. 42
   Strengthen Oversight and Guidance for Use of Government Purchase Cards During
   Emergencies......................................................................................................................42

  Children, Families, and Aging Issues .................................................................... 43
   Strengthen Federal and State Oversight of Separate State Children’s Health Insurance
   Program Fraud and Abuse Safeguards ...............................................................................43

Previous Nonmonetary Recommendations ............................ 44
  Medicare and Medicaid ........................................................................................... 45

  Medicare Hospitals.................................................................................................. 45
   Improve Carrier Determination of Copayments for Medicare Mental Health Services .......45


Table of Contents                                                                                                            Page vi
  Medicare Hospitals.................................................................................................. 46
   Improve the Availability of Quality-of-Care Data in the Medicare End Stage Renal Disease
   Program.............................................................................................................................46

  Medicare Hospitals.................................................................................................. 47
   Improve Quality Oversight of Ambulatory Surgical Centers in the Medicare Program.......47

  Medicare Hospitals.................................................................................................. 48
   Improve Oversight of Rural Health Clinics........................................................................48

  Nursing Homes ........................................................................................................ 49
   Ensure That States Cease Imposing Fees on Nurse Aide Registration ................................49

  Nursing Homes ........................................................................................................ 50
   Ensure That Only Registered Nurse Aides Without Substantiated Findings Are
   Registered .........................................................................................................................50

  Nursing Homes ........................................................................................................ 51
   Update Nursing Home Nurse Aide Training Curriculum ...................................................51

  Medicare Reimbursement ....................................................................................... 52
   Strengthen Managed Care (Part C) and Prescription Drug (Part D) Benefit Payment
   Cycles ...............................................................................................................................52

  Other Medicare and Medicaid Issues..................................................................... 54
    Improve Medicare Information Systems Controls..............................................................54

  Other Medicare and Medicaid Issues..................................................................... 56
    Improve Centers for Medicare & Medicaid Services Performance Evaluation Process for
    Program Safeguard Contractors .........................................................................................56

  Laboratories............................................................................................................. 57
    Improve Enrollment and Certification Processes in the Clinical Laboratory Improvement
    Amendments Program .......................................................................................................57

  Prescription Drugs .................................................................................................. 58
    Provide Additional Guidance to Drug Manufacturers To Better Implement the Medicaid
    Drug Rebate Program ........................................................................................................58

  Public Health............................................................................................................ 59

  Health Resources and Services ............................................................................. 59
   Improve Health Resources and Services Administration Alert List Practices .....................59

  Health Resources and Services ............................................................................. 60
   Report Medical Malpractice Cases to the National Practitioner Data Bank ........................60

  Health Resources and Services ............................................................................. 61
   Improve Hospital Reporting to the National Practitioner Data Bank ..................................61

  Health Resources and Services ............................................................................. 62
   Improve Monitoring of Ryan White CARE Act Grantees and Subgrantees ........................62
Table of Contents                                                                                                               Page vii
  Food and Drug Safety ............................................................................................. 63
    Strengthen Food and Drug Administration Oversight of Clinical Investigators ..................63

  Food and Drug Safety ............................................................................................. 64
    Update and Maintain an Accurate New Drug Code Directory ............................................64

  Food and Drug Safety ............................................................................................. 65
    Improve FDA’s Postmarketing Oversight of Drugs ...........................................................65

  Children, Families, and Aging ................................................................................ 67

  Administration on Aging......................................................................................... 67
   Ensure That States’ Cost-Sharing Practices Comply With Older Americans Act
   Requirements and Improve Quality of Data .......................................................................67

  Children, Youth, and Family Services.................................................................... 68
   Improve Methods of Recruiting Foster Parents ..................................................................68

  Departmentwide and Cross-Cutting Issues .......................................................... 69
   Improve Financial Analysis and Reporting Processes ........................................................69

  Departmentwide and Cross-Cutting Issues .......................................................... 71
   Strengthen State Protections for Persons With Disabilities in Residential Settings .............71

  Departmentwide and Cross-Cutting Issues .......................................................... 72
   Improve Safeguards for Long Term Care Residents...........................................................72

Acronyms..................................................................................... 73




Table of Contents                                                                                            Page viii
New Monetary Recommendations
Medicare and Medicaid
Medicare Hospitals

Adjust Medicare Outpatient Outlier Payments
Background: Under the Medicare prospective payment system (PPS), the Centers for Medicare
& Medicaid Services (CMS) reimburses outpatient providers, including hospital outpatient
departments and community mental health centers, based on predetermined, fixed payment
amounts. Section 1833(t)(5) of the Social Security Act (SSA) requires that CMS make
additional payments, called outlier payments, if the cost of care is extraordinarily high in relation
to the average cost of treating comparable conditions or illnesses, established by CMS. In a
series of reviews, we identified significant outpatient outlier overpayments to community mental
health centers that resulted from clerical or mathematical errors. In response to our
recommendations to recoup these overpayments, the fiscal intermediaries stated that CMS had
not authorized them to do so because CMS considered outpatient outlier payments to be final
payments not subject to retroactive adjustments. However, neither the SSA nor Medicare
regulations specifically state that outlier payments are final payments. Further, a provision of the
“Medicare Financial Management Manual” states that providers are liable for overpayments that
result from clerical or mathematical errors. Prior to 2003, CMS’s longstanding practice, under
both inpatient PPS and the outpatient PPS, was to consider all outlier payments as final payments
not subject to retroactive adjustment. In 2003, CMS modified its policy under the inpatient PPS
to require retroactive adjustments of outlier payments in certain circumstances. However, CMS
has not similarly modified its practice to allow retroactive adjustment of outlier payments under
the outpatient PPS.
Finding(s): CMS’s practice of not retroactively adjusting outpatient outlier payments creates
significant vulnerabilities and is inconsistent with CMS’s policy of retroactively adjusting
inpatient PPS outlier payments. This practice results in losses to the Medicare Trust Fund,
creates payment inequities, and may penalize providers that comply with Medicare requirements.
Although our work was specific to community mental health centers, similar vulnerabilities may
exist in the outpatient outlier programs for other types of providers.
Recommendation(s): CMS should issue regulations to require retroactive adjustments of
outpatient outlier payments within appropriate thresholds.
Savings:       TBD*
*To be determined

Status: CMS did not express concurrence or nonconcurrence with our recommendation in its
comments on the draft of our report but did agree to explore the feasibility and cost-effectiveness
of implementing our recommendation. In April 2008, CMS informed us that it is continuing to
study the possibility of not considering outpatient PPS outlier payments as final payments and
the possibility of reopening the cost reports to determine whether there are provider or contractor
errors.
Report(s):     OAS-07-06-04059; issued 06/07




New Monetary Recommendations                                                                  Page 1
Medicare Durable Medical Equipment

Ensure Durable Medical Equipment Suppliers’ Compliance With Medicare
Standards
Background: CMS reported that payments for durable medical equipment, prosthetics,
orthotics, and supplies (DMEPOS) reached $10 billion in fiscal year (FY) 2005. DMEPOS are
covered under Medicare Part B and include items such as hospital beds, wheelchairs, respirators,
walkers, and artificial limbs. DMEPOS suppliers must enroll in the Medicare program to sell or
rent medical equipment and supplies to Medicare beneficiaries and to submit claims for
Medicare reimbursement. At the time of our review, DMEPOS suppliers had to comply with
21 Medicare DMEPOS supplier standards to enroll in the Medicare program. We conducted
unannounced site visits to DMEPOS suppliers in three South Florida counties in 2006.
Finding(s): A total of 491 of 1,581 suppliers (31 percent) failed to maintain physical facilities
or were not open and staffed during our unannounced site visits, contrary to regulations
containing the DMEPOS supplier standards. Suppliers located in Miami-Dade County
represented 64 percent of the suppliers we visited, but accounted for 80 percent of suppliers that
did not maintain physical facilities or were not accessible during business hours.
Six percent of the suppliers we visited (98 of 1,581) did not maintain physical facilities. An
additional 25 percent of suppliers (393 of 1,581) were not accessible during reasonable business
hours. Of these suppliers, 385 were closed during unannounced site visits on a minimum of
2 weekdays during reasonable or posted business hours. Fourteen percent of suppliers (216 of
1,581) were open and staffed but failed to meet at least one of the three remaining requirements
we reviewed. Of the 216 suppliers, 204 did not post hours of operation and 10 did not have
listed telephone numbers. Eight suppliers were open but not staffed during a minimum of two
unannounced site visits.
Recommendation(s): CMS should strengthen the Medicare durable medical equipment (DME)
supplier enrollment process and ensure that suppliers meet Medicare supplier standards. We
suggested a number of specific options for implementing this recommendation.
Savings: TBD
Status: In its comments on our draft, CMS agreed with, or stated that it would consider, the
options we recommended for strengthening the Medicare DMEPOS supplier enrollment process.
CMS has taken action to implement these suggested options, including revising the National
Supplier Clearinghouse contractual requirements to enhance the number of unscheduled site visits,
adding DMEPOS supplier standards, and prioritizing reenrollment applications over processing
new applications in highly vulnerable areas of the country. On November 1, 2007, CMS began a
2-year demonstration project involving all DMEPOS suppliers located in Miami-Dade, Broward,
and Palm Beach Counties in Florida and Los Angeles, Orange, Riverside, and San Bernardino
Counties in California. CMS informed us in December 2007 that it had initiated the process of
conducting background checks on selected suppliers with high fraud potential. CMS has also
begun its competitive bidding program within 10 of the largest metropolitan statistical areas with
plans to expand to an additional 70 communities in 2009 and more thereafter. CMS published
regulation CMS-6036-P on January 25, 2008, to clarify and expand upon additional standards for




New Monetary Recommendations                                                                 Page 2
suppliers including changes to minimum inventory and business hours and the deactivation of
DMEPOS suppliers that have been inactive for significant periods of time. We will continue to
monitor the implementation and results of CMS background demonstrations and its competitive
bidding program.
Report(s):    OEI-03-07-00150; issued 03/07




New Monetary Recommendations                                                              Page 3
Previous Monetary Recommendations
Medicare and Medicaid
Medicare Hospitals

Continue Mandated Reductions in Hospital Capital Costs
Background: In October 1991, CMS began a 10-year transition period for paying inpatient
hospital capital-related costs under the PPS. The rates are based on historical costs less a
mandated reduction of 7.4 percent under the Omnibus Budget Reconciliation Act (OBRA) of
1993.
Finding(s): Hospital capital costs soared during the first 5 years of the PPS for inpatient hospital
costs, despite low bed occupancy. The Medicare system of reimbursing capital costs on a
pass-through basis (i.e., reimbursed outside the diagnosis-related group (DRG)) was a major
reason for this increase. Paying capital costs prospectively, as required by regulation, should
assist in curbing escalating costs. However, the prospective rates are based on historical costs
that are inflated because (1) excess capacity in the hospital industry has caused more capital
costs to be incurred than economically necessary and (2) inappropriate elements, such as charges
for depreciation on federally funded assets, are included in the historical costs.
Recommendation(s): CMS should (1) seek legislative authority to continue mandated
reductions in capital payments beyond FY 1995 and (2) determine the extent to which capital
payment reductions are needed to fully account for hospitals’ excess bed capacity and report the
percentage of reduction to Congress.
Savings: TBD
Status: CMS did not concur with our recommendations. In its comments on the draft of our
1992 report, CMS stated that it believed that section 1886(g)(1)(B)(iv) of the SSA, which states
that the Secretary of HHS may provide for an adjustment for occupancy rate, is intended only to
provide for an adjustment to capital PPS payments based on a hospital’s current occupancy rate.
Although the Balanced Budget Act of 1997 (BBA) reduced capital payments, we note that it did
not include the effects of excess bed capacity and other elements included in the base-year
historical costs. The President’s FY 2001 budget proposed reducing capital payments and saving
$630 million from FY 2001 through FY 2005. However, this reduction was not made, and we
continue to recommend that CMS review the need for capital payment reductions. In the final
rule that set FY 2008 hospital inpatient rates, which was published in the August 22, 2007,
Federal Register, CMS stated that that it was continuing to monitor current capital payment and
cost data. The final rule also reduced capital payments by eliminating the large urban add-on
adjustment and phasing out the teaching adjustment. We plan to perform a follow-up audit of
this issue during FY 2008.
Report(s):     OAS-09-91-00070; issued 04/92
               OAS-14-93-00380; issued 04/93




Previous Monetary Recommendations                                                            Page 5
Medicare Hospitals

More Accurately Reflect Base-Year Costs in Prospective Payment System’s
Capital Cost Rates
Background: Under section 1886(d) of the SSA, the Medicare program pays for the operating
costs attributable to hospital inpatient services under the PPS. The system pays for care using a
predetermined specific rate for each discharge. P.L. No. 100-203 required the Secretary of HHS
to establish a PPS for capital costs for cost-reporting periods beginning in FY 1992.
Finding(s): Although CMS took care to devise and implement an equitable PPS for capital
costs, some future cost items had to be estimated. A few years later, when actual data were
available, we compared CMS’s estimates with the actual data and found, in some cases, that the
estimates were too high. A 7.5-percent reduction would correct all forecasting estimates that
CMS had to make in arriving at an anticipated rate to implement the capital cost PPS. The total
effect of overpayments in relation to costs used as the basis for this system gradually increased
from 1996 until the system was fully implemented in 2002.
Recommendation(s): CMS should (1) consider seeking legislation to reduce payment rates by
7.5 percent to more accurately reflect costs of the base year used for the capital cost PPS and
(2) continue to monitor the most current data and make any necessary further adjustments to the
base rate.
Savings: TBD
Status: In its comments on the draft of our report, CMS concurred that the capital rate reflected
an overestimation of base-year costs. Subsequently, the BBA of 1997 provided for a reduction
of 2.1 percent in capital payments for FYs 1998 through 2002. No additional adjustments have
been made. However, in the final rule that set FY 2008 hospital inpatient payment rates, which
was published in the August 22, 2007, Federal Register, CMS stated that it was continuing to
monitor current capital payment and cost data to determine whether additional adjustments were
warranted. The final rule also reduced capital payments by eliminating the large urban add-on
adjustment and by phrasing out the teaching adjustment.
Report(s):     OAS-07-95-01127; issued 08/95




Previous Monetary Recommendations                                                           Page 6
Medicare Hospitals

Revise Graduate Medical Education Payment Methodology
Background: Section 9202 of the Consolidated Omnibus Budget Reconciliation Act of 1985
and section 9314 of the OBRA of 1986 changed the way Medicare reimburses hospitals for the
direct costs of graduate medical education (GME). Under the revised methodology, costs are
reimbursed on a “hospital-specific” prospective payment basis, which is based on a hospital’s
GME costs per resident in a base year, usually the cost-reporting period that began during
FY 1984.
Finding(s): CMS estimated that the revised GME methodology would result in substantial
Medicare savings. Our review indicated that because of two factors within the methodology,
Medicare will pay a disproportionate share of GME costs. First, the revised system allows
hospital cost centers with little or no Medicare patient utilization to receive increased importance
in the calculation of GME reimbursement. Second, the Medicare patient load percentage used to
compute Medicare’s share of these costs is based on inpatient data only and is higher than
Medicare’s overall share of GME costs as determined under the previous method, which also
included ancillary and outpatient data.
Recommendation(s): CMS should (1) revise the regulations to remove from a hospital’s
allowable GME base-year costs any cost center with little or no Medicare utilization and
(2) submit a legislative proposal to compute Medicare’s percentage of participation under the
former method or a similarly comprehensive system.
Savings:          Factor 1          $39.2 million*
                  Factor 2          $125.6 million*
                  Combined          $157.3 million*
*Estimated savings are based on 4 years of cost reporting beginning October 1, 1985. When the two proposed
changes are handled as one combined calculation, the savings are less than those from calculating the effect of the
changes separately.

Status: CMS did not concur with our recommendations, stating in its comments on the draft of
our report that it believed that little Medicare savings would result from implementation of the
first recommendation and that a legislative proposal to implement the second recommendation
was not appropriate because of pending changes to existing GME programs. Although we note
that the BBA of 1997 and the Balanced Budget Refinement Act of 1999 (BBRA) contained
provisions to slow the growth in Medicare spending on GME, we continue to recommend that
CMS revise GME payment methodology to achieve further savings. In April 2008, CMS
informed us that it is continuing to monitor this area.
Report(s):        OAS-06-92-00020; issued 04/94




Previous Monetary Recommendations                                                                            Page 7
Medicare Hospitals

Modify Payment Policy for Medicare Hospital Bad Debts
Background: Under Medicare’s inpatient hospital PPS, hospitals are reimbursed for inpatient
services rendered to Medicare beneficiaries by a fixed payment amount based on a DRG.
However, bad debts related to unpaid Medicare deductible and coinsurance amounts are
reimbursed separately as pass-through items (i.e., reimbursed outside the DRG) under reasonable
cost principles, subject to a 30-percent reduction. Most provider types are also entitled to have
their bad debts reimbursed at this rate.
Finding(s): CMS records showed that total Medicare hospital bad debts increased from
$159 million in FY 1984 to almost $399 million in FY 1987. During this same period, hospitals
continued to earn significant profits. Although regulations provide that hospitals must be able to
establish that they made reasonable bad debt collection efforts, such efforts have often been
inadequate; hospitals have little incentive to aggressively collect the unpaid deductible and
coinsurance amounts when Medicare pays these amounts. As a result, hospitals have received
unallowable bad debt payments.
Recommendation(s): CMS should consider various options including eliminating bad debt
payments, reimbursing PPS hospitals for bad debts only if the hospitals lost money on their
Medicare operations, and including a bad debt factor in the DRG rates. CMS should seek
legislative authority to further modify bad debt policies.
Savings: $340 million*
*Savings shown in the President’s FY 2001 budget, proposing to eliminate bad debt payments to hospitals. Savings
of $7.15 billion for FYs 2008-2012 was estimated in the President’s FY 2008 budget proposal to eliminate bad debt
payments to all providers.

Status: CMS did not concur with our recommendations. Subsequently, in a February 10, 2003,
proposed rule, CMS reiterated that it did not concur with the recommendations because the base
period used to derive PPS rates did not include bad debts. Although the BBA of 1997 provided
for some reduction of bad debt payments to providers, the Medicare, Medicaid, and SCHIP
Benefits Improvement and Protection Act of 2000 increased bad debt reimbursement. The
President’s FY 2009 budget included a legislative proposal to eliminate Medicare bad debt
payments for all providers over a 4-year period. However, this proposal has not been enacted.
Report(s):       OAS-14-90-00339; issued 06/90                     OAS-05-02-00052; issued 10/02
                 OAS-04-00-06005; issued 12/01                     OAS-04-02-02011; issued 10/02
                 OAS-03-02-00002; issued 06/02                     OAS-06-02-00027; issued 10/02
                 OAS-03-01-00022; issued 07/02                     OAS-01-02-00515; issued 01/03
                 OAS-09-02-00057; issued 07/02                     OAS-02-02-01031; issued 01/03
                 OAS-02-02-01016; issued 09/02                     OAS-04-02-02016; issued 01/03
                 OAS-05-02-00039; issued 10/02




Previous Monetary Recommendations                                                                          Page 8
Medicare Hospitals

Recover Overpayments and Expand the Diagnosis-Related Group Payment
Window
Background: Under the PPS for inpatient hospital services, Medicare fiscal intermediaries
reimburse hospitals a predetermined amount for inpatient services furnished to Medicare
beneficiaries depending on the illness and its classification under a DRG. Effective January 1,
1991, separate payments for nonphysician outpatient services (such as diagnostic tests and
laboratory tests) provided to patients during the 3 days prior to the date of the patients’ admission
are not permitted under the OBRA of 1990, section 4003. This 3-day period is known as the
DRG payment window. Previously, separate payments for nonphysician outpatient services
provided before admission for inpatient stays were permitted in the 24 hours preceding
admission.
Finding(s): For the period November 1990 through December 1991, our review identified
approximately $83.5 million in admission-related nonphysician outpatient services rendered 4 to
7 days immediately before inpatient admissions. A subsequent review identified $37 million in
preadmission services provided to patients for 10 selected DRGs 4 to 14 days prior to admissions
during calendar year (CY) 2000. Because the intent of the PPS has always been to include
related services under one prospective payment, it would seem appropriate that the DRG
payment window encompass a longer period.
Recommendation(s): CMS should propose legislation to expand the DRG payment window to
at least 7 days immediately before the day of admission.
Savings:        Diagnostic services provided: 4 - 7 days                    $83.5 million*
                                                           4 - 10 days $37.0 million**
*The savings estimate is based on nonphysician outpatient services rendered 4 to 7 days immediately before
inpatient admissions during the period November 1990 through December 1991. **The savings estimate is based on
the 10 selected DRGs associated with nonphysician outpatient services rendered 4 to 14 days prior to inpatient
admissions during CY 2000.

Status: In its comments on the draft of our 2003 report, CMS concurred with our
recommendation; it noted, however, that it would need to consider the impact on
admission-related outpatient services provided to beneficiaries before a legislative change could
be advanced.
Report(s):      OAS-01-92-00521; issued 07/94
                OAS-01-02-00503; issued 08/03




Previous Monetary Recommendations                                                                      Page 9
Medicare Hospitals

Adjust Base-Year Costs in the Prospective Payment System for Hospital
Outpatient Department Services
Background: The BBA of 1997 required CMS to develop a PPS for hospital outpatient
department services. This legislation required CMS to use 1996 hospital claims data and the
most recent available cost report data to develop the rates.
Finding(s): We are concerned about the reliability of the claims and cost data that CMS used in
the prospective payment rate calculations. Our prior audit work identified substantial
unallowable costs in hospitals’ Medicare cost reports and several areas of payment improprieties
in Medicare reimbursement for outpatient department services. Because the outpatient PPS is
based on prior Medicare outpatient reimbursement, we have concerns that the payment rates may
be inflated.
Recommendation(s): CMS should, in conjunction with OIG, further examine the extent to
which the base-period costs used in the outpatient prospective payment rate calculations included
unallowable costs and improper payments. If this work reveals that excessive unallowable costs
and improper payments were included in the calculations, appropriate adjustments should be
made.
Savings: TBD
Status: In its comments on the draft of our report, CMS concurred with our recommendation
but no additional analysis has been performed to examine the adequacy of base-year costs.
Report(s):    OAS-14-98-00400; issued 11/98




Previous Monetary Recommendations                                                         Page 10
Medicare Nursing Homes

Monitor the Quality and Appropriateness of Consecutive Medicare Stays
Background: Under the authority of the Peer Review Improvement Act of 1982, CMS contracts
with Quality Improvement Organizations (QIO) in each State to ensure that quality, effective,
efficient, and economical hospital care is provided to Medicare beneficiaries. QIOs are
responsible for routinely reviewing items or services provided to Medicare beneficiaries to
determine quality and appropriateness of these services. OIG conducted two reviews to assess
the quality of care and medical necessity of services provided to Medicare beneficiaries within
sequences of consecutive stays. A “consecutive stay sequence” is a sequence of three or more
inpatient or skilled nursing facility (SNF) stays for a beneficiary with multiple admissions when
the successive stay occurred within 1 day of discharge of the preceding stay. Our first report,
issued in 2005, focused on consecutive inpatient stays in FY 2002 involving acute care facilities
that may be found within acute care hospitals: rehabilitation units, psychiatric units, and skilled
nursing swing beds. Our second report, issued in 2007, assessed consecutive stay sequences in
CY 2004 that included at least one SNF stay.
Finding(s): In our first review, we found that in FY 2002, Medicare paid an estimated
$267 million for sequences of Medicare inpatient stays that were associated with quality-of-care
problems and/or fragmentation of services. In our second review, we projected that 35 percent
of inpatient and SNF consecutive stay sequences in CY 2004 were associated with quality-of-
care and/or fragmentation of services. Medicare paid an estimated $4.5 billion for these
problematic and/or fragmented consecutive stay sequences. Eleven percent of the individual
stays within consecutive stay sequences in CY 2004 involved problems with quality of care,
admissions, treatments, or discharges. In addition, 20 percent of individual stays within
consecutive stay sequences in CY 2004 lacked documentation sufficient for reviewers to
determine whether appropriate care was rendered.
Recommendation(s): CMS should direct QIOs to monitor for fragmentation and quality of care
across consecutive stay sequences. CMS should encourage fiscal intermediaries and QIOs, as
appropriate, to monitor the medical necessity and appropriateness of services provided. It should
also collaborate with providers to improve systems of care based on review results and reinforce
efforts to educate medical providers on their responsibility for ensuring that medical records
contain the information necessary to determine the quality, medical necessity, and medical
appropriateness of care provided.
Savings: TBD
Status: In its comments on our 2007 report, CMS concurred with our recommendations, noting
that it would place greater emphasis on continuity-of-care issues in all settings and on measuring
the rate of events, such as hospital readmissions. The agency stated that it would consider
incorporating interventions in the Ninth Statement of Work (SOW) for the QIO program.
CMSindicated that it was working with physician groups to increase the understanding of the
“Medical home” concept, in which care is coordinated for a patient through a single site, and
would request QIOs to categorize complaints by type to provide better data on lapses in
continuity of care and to emphasize documentation. In April 2008, CMS informed us that the
QIO 9th SOW, to begin August 1, 2008, will specifically address the issues of continuity-of care
by developing the care transitions theme. We continue to monitor CMS’s efforts to implement
these actions.
Report(s):     OEI-03-01-00430; issued 06/05               OEI-07-05-00340; issued 06/07
Previous Monetary Recommendations                                                          Page 11
Durable Medical Equipment

Reduce the Rental Period for Medicare Home Oxygen Equipment
Background: Section 1834(a)(5) of the SSA authorizes Medicare payment for home oxygen
equipment under its DME benefit. Medicare covers both stationary and portable oxygen delivery
systems, which were payable on a rental-only basis from 1989 (the year in which Medicare
implemented the DME fee schedule) until 2006. Since January 1, 2006, the rental period has
continued to be 36 months and Medicare discontinues payments to home oxygen providers after
36 months.
Finding(s): Based on the 2006 median fee schedule amount, Medicare will allow $7,215 for
36 months for concentrators that cost $587, on average, to purchase. Based on our analysis,
minimal servicing and maintenance for concentrators and portable equipment are necessary.
Recommendation(s): CMS should work with Congress to further reduce the rental period for
oxygen equipment, determine the necessity and frequency of nonroutine maintenance and
servicing for concentrators, and determine whether a new payment methodology is appropriate
for portable oxygen.
Savings: $5 billion
Status: CMS concurred with our recommendations. With regard to the first recommendation,
as of February 2008, Congress had a bill pending to reduce the monthly rental limit for oxygen
from 36 to 13 months. Concerning the second and third recommendations, CMS posted a final
rule on November 2, 2006, to address payments for nonroutine maintenance and servicing, as
well as for portable oxygen after patients reach the 36-month cap on rental payments. The
President’s 2009 Budget proposal includes a provision further reducing the rental period for most
oxygen equipment from 36 months to 13 months. We will continue to monitor this area as the
new rental period is implemented.
Report(s):    OEI-09-04-00420; issued 09/06




Previous Monetary Recommendations                                                         Page 12
End Stage Renal Disease

Reduce Medicare End Stage Renal Disease Payment Rates
Background: The OBRA of 1981 established a PPS for outpatient dialysis treatments under
Medicare’s end stage renal disease (ESRD) program. To reimburse facilities for these
treatments, CMS pays a composite rate per treatment based on audited median costs. In
FY 1989, payments averaged $125.05 per treatment for freestanding facilities and $129.11 for
hospitals.
Finding(s): Both 1985 and 1988 audited data justify a decrease in the payment rate. The 1985
data showed a median cost, including home dialysis costs, of $108.19 per treatment. Even after
considering the effect of home dialysis services, the in-facility costs decreased from 1980 to
1985 without a corresponding reduction in the prospective rates. In addition, our audit of the
1988 home office costs of a major chain of freestanding facilities showed that home office costs
decreased from $117 per treatment in 1980 to $89 in 1988. Because of the prominence of this
chain, these audited costs have a significant impact on the median cost of dialysis treatments.
We estimated that this chain was earning $36 per treatment, a 29-percent profit margin for each
treatment in 1988.
Recommendation(s): CMS should reduce the payment rates for outpatient dialysis treatments
to reflect current efficiencies and economies in the marketplace.
Savings: $45 million*
*This estimate, which is based on 2004 Medicare payments for dialysis treatments, represents program savings of
$46 million for each dollar reduction in the composite rate.

Status: CMS concurred with our recommendation. However, we note that subsequent
legislation enacted in 1999, 2000, 2001, and 2006 increased composite payment rates for
outpatient dialysis treatment. The Tax Relief and Health Care Act of 2006, Division B, Title 1,
section 103, increased the amount of the composite rate component of the basic case-mix
adjusted by 1.6 percent for services furnished on or after April 1, 2007. In April 2008, CMS
informed us that it had released a report to Congress regarding its research and analysis of a
bundled ESRD payment system and is awaiting Congressional action that would allow it to
implement such a system. Although there has been legislation increasing the composite payment
rates for outpatient dialysis treatment, we continue to recommend that these rates reflect the costs
of outpatient dialysis treatments in efficiently operated facilities. We plan to reexamine whether
the payment rates for outpatient dialysis services reflect current efficiencies and economies in the
marketplace.
Report(s):       OAS-14-90-00215; issued 07/90




Previous Monetary Recommendations                                                                        Page 13
Medicare Reimbursement

Review Payment Levels and Reinstate Beneficiary Cost Sharing for Laboratory
Services
Background: Medicare pays for most clinical laboratory tests based on fee schedules. These
schedules, effective July 1, 1984, were established by each carrier generally at 60 percent of the
Medicare prevailing charge (the charge most frequently used by all suppliers). Over the years,
the Medicare fee schedule has gone through several adjustments. The OBRA of 1993 reduced
the cap for the Medicare clinical laboratory fee schedule from 84 percent beginning in 1994 to
76 percent by 1996. The BBA of 1997 reduced fee schedule payments by lowering the cap to
74 percent of the median for payment amounts beginning in 1998, but the Benefits Improvement
and Protection Act of 2000 raised the fee schedule amounts to 100 percent of the median for
“new tests” performed on or after January 1, 2001. Also, no inflation update was permitted
between 1998 and 2002.
Finding(s): Our 1996 follow-up report found that Medicare generally continued to pay clinical
laboratories more than physicians pay for the same tests. Our previous work indicated that the
clinical laboratories marketed customized panels to physicians at less than what Medicare paid
for the same tests. This contributed to a significant increase in the use of laboratory services.
Recommendation(s): CMS should (1) review payment levels for laboratory services and
(2) reinstate the beneficiary coinsurance and deductible provisions for laboratory services as a
means of controlling utilization.
Savings:         Copayment                                  $1.25 billion*
                 Fee Schedule Adjustment                    TBD
*The savings estimate is based on the 20-percent copay applied to FY 2005 Medicare payments for clinical
laboratory services totaling $6.28 billion.

Status: In its comments on the draft of our 1996 report, CMS partially concurred with our
recommendations and noted that it had taken some steps to reduce payments for laboratory
services. However, it did not concur with the recommendation to reinstate beneficiary
coinsurance and deductible provisions for laboratory services, noting that the President’s 1996
budget statement did not include such a proposal. The BBA of 1997 required the Secretary of
HHS to request that the Institute of Medicine (IOM) conduct a study of Part B laboratory test
payments. As a result of the IOM’s recommendations, section 302(b) the Medicare Prescription
Drug, Improvement, and Modernization Act of 2003 (MMA) mandated that CMS conduct a
demonstration that applies competitive bidding to clinical laboratory services that would
otherwise be paid under the Medicare Part B fee schedule. In December 2005, CMS submitted
the initial report on the demonstration to Congress. The MMA also set the laboratory fee
schedule updates at 0 percent for 2004 through 2008. On October 17, 2007, CMS issued a notice
(CMS-5045-N) to announce the first demonstration for the Medicare Clinical Laboratory
Services Competitive Bidding Demonstration Project. In April 2008, CMS informed us that the
first site of the Competitive Bidding Demonstration Project was the San Diego-Carlsbad-San
Marcos, California, metropolitan area. CMS indicated that it was currently evaluating the bids
received and would announce the winning laboratories later, but noted that two laboratories in
San Diego had filed a lawsuit to stop the Demonstration.



Previous Monetary Recommendations                                                                          Page 14
Because of the potential for overutilization and the fact that beneficiaries are not always aware of
the tests being performed, we continue to recommend that CMS study the reinstatement of
beneficiary coinsurance and deductible provisions for laboratory services. Although legislation
over the years has reduced the prices for individual tests, we continue to recommend that CMS
evaluate payments for laboratory services.
Report(s):     OAS-09-89-00031; issued 01/90         OAS-09-93-00056; followup issued 01/96




Previous Monetary Recommendations                                                            Page 15
Medicare Reimbursement

Require Physician Examination Before Ordering Home Health Services
Background: Section 1861 of the SSA authorized Medicare payments for home health services.
Since October 1, 2000, home health agencies have been reimbursed under a PPS system. Federal
regulations at 42 CFR § 424.22 require physicians to certify the need for home health services.
Finding(s): Our audits and investigations have identified medically unnecessary care and
inappropriate or fraudulent billing by specific home health agencies. Further, we have conducted
studies that describe extreme variations and broad patterns of billing by these agencies, raising
questions about the appropriateness of some billings. Accordingly, we find that systematic
controls on the home health benefit are warranted to prevent abuse.
Recommendation(s): Although Medicare regulations require physician certification for home
health services, they do not explicitly require a physician to personally examine a beneficiary
prior to making the certification. CMS should revise Medicare regulations to require that
physicians examine patients before ordering home health care. As discussed below, other
recommendations to correct abusive and wasteful practices are being addressed.
Savings: TBD
Status: In its comments on the draft of our July 1997 report, CMS partially concurred with our
recommendation, stating that it agreed in principle that physicians should certify home health
care only on the basis of personal knowledge of the patient’s condition and that recertifications
should be made only when that knowledge is updated. However, CMS stated that it did not
support the imposition of specific service requirements or timeframes until it had examined both
coverage rules and conditions of participation to develop the discipline necessary for ensuring
proper certification. Subsequently, CMS informed us that it was providing additional payments
for physician plan care oversight and additional education for physicians and beneficiaries as
incentives to encourage more physician involvement. Our four-State review of services provided
in 1998 identified unallowable services because of inadequate physician involvement. Although
the BBA of 1997 included provisions to restructure home health benefits, we continue to
recommend that CMS revise regulations to require that physicians examine Medicare patients
before ordering home health services.
Report(s):    OAS-04-94-02078; issued 02/95               OAS-04-95-01107; issued 09/96
              OEI-12-94-00180; issued 05/95               OAS-03-95-00011; issued 11/96
              OEI-02-94-00170; issued 06/95               OAS-04-96-02121; issued 07/97
              OAS-04-94-02087; issued 06/95               OAS-02-97-01026; issued 09/97
              OEI-04-93-00260; issued 07/95               OAS-04-97-01166; issued 04/99
              OEI-04-93-00262; issued 09/95               OAS-04-97-01170; issued 04/99
              OAS-04-95-01103; issued 03/96               OAS-02-97-01034; issued 09/99
              OAS-04-95-01106; issued 03/96               OAS-04-98-01184; issued 09/99
              OAS-04-95-01104; issued 06/96               OAS-04-99-01194; issued 11/99
              OAS-04-95-01105; issued 09/96               OAS-04-99-01195; issued 03/01




Previous Monetary Recommendations                                                         Page 16
Medicare Reimbursement

Ensure Appropriateness of Medicare Payments for Mental Health Services
Background: Section 1862(a)(1)(A) of the SSA requires all services, including mental health
services, to be reasonable and necessary for the diagnosis or treatment of an illness or injury or to
improve the functioning of a malformed body member.
Finding(s): Our reviews have indicated that claim error rates for mental health services have
exceeded 34 percent, suggesting widespread problems across a variety of provider types and care
settings. Our 2007 study projected that 47 percent of the mental health services allowed by
Medicare in 2003 did not meet program requirements. Billing abuses involving beneficiaries
who are unable to benefit from psychotherapy demonstrate a special need for enhanced program
and beneficiary protections. Also, beneficiaries with mental illness sometimes do not receive all
the services that they need, so that both underutilization and overutilization problems exist.
“Partial hospitalization” services, which may be provided by both hospitals and community
mental health centers, have been particularly troublesome. These intensive services are designed
to reduce the need for hospitalization of beneficiaries with serious mental illness. We have
estimated that payment error rates for partial hospitalization in community mental health centers
were as high as 92 percent. A number of these centers were terminated from the program after
CMS determined that they did not meet certification requirements.
Further, miscoded and undocumented services accounted for 26 and 19 percent of all mental
health services in 2003, respectively. Medically unnecessary services and services that violated
the “incident to” rule each accounted for 4 percent of all mental health services in 2003. The
‘incident to” rule allows a physician to bill for mental health services performed by his or her
staff if the services are rendered “incident to” a physician’s professional services.
Recommendation(s): CMS should ensure that mental health services are medically necessary
and reasonable; are accurately billed; and are ordered by an authorized practitioner by using a
comprehensive program of targeted medical reviews, provider education, improved
documentation requirements, and increased surveillance. Additionally, CMS should revise,
expand, and reissue its 2003 Program Memorandum on Part B mental health services with an
increased emphasis on proper documentation, coding, and requirements for mental health
services billed “incident to.”
Savings: $1.44 billion*
*This figure includes $224 million for acute hospital outpatient services in 1997, $229 million in improper payments
for partial hospitalization in community mental health centers in 1997, $57 million in improper payments for
psychiatric hospital outpatient services in 1998, $30 million in improper payments for mental health services in
1999, and $185 million in improper payments for other mental health services in 1998 and $718 million in improper
payments in 2003.

Status: In its comments on the draft of our October 1998 report, CMS concurred with the
recommendations, noting that it had initiated some efforts to reduce unallowable payments.
CMS indicated that it was conducting site visits at community mental health centers and had
terminated noncompliant providers from the Medicare program. Our work during 2006 in the
area of community mental health centers indicated that there were still significant unallowable
payments. In April 2008, CMS stated that it was considering changes to ensure more accurate
payment policy. CMS also concurred with our recommendations to our 2007 report but noted
that significant information on medical documentation requirements, including “incident to”
Previous Monetary Recommendations                                                                          Page 17
services, is available on its Web site. We determined that guidance on documentation for
evaluation and management services can be found in the “Claims Processing Manual” (Pub.
100-04, Chapter 12, section 30.6) and that specific guidance on “incident to” services can be
found in the “Benefits Policy Manual” (Pub. 100-02, Chapter 15, section 60.1). We continue to
recommend that CMS reissue the 2003 Program Memorandum with the additional guidance cited
in our recommendations.
Report(s):    OAS-04-98-02145; issued 10/98            OEI-03-99-00130; issued 05/01
              OAS-01-99-00507; issued 03/00            OAS-06-04-00076; issued 03/06
              OAS-01-99-00530; issued 12/00            OAS-04-04-02003; issued 04/06
              OEI-02-99-00140; issued 01/01            OEI-09-04-00220; issued 04/07




Previous Monetary Recommendations                                                     Page 18
Other Medicare Reimbursement

Reduce Improper Medicare Payments for Allergen Immunotherapy
Background: In 2001, Medicare allowed approximately $130 million for allergen
immunotherapy and related services. By 2003, this amount had grown to $171 million. Allergen
immunotherapy, commonly known as allergy shots, is intended to reduce patients’ reactions to
particular allergens. Title XVIII of the SSA limits Medicare coverage to services that are
medically necessary (section 1862(a)(1)(A)) and are supported by documentation (section
1833e).
Finding(s): Sixty-two percent of the allergen immunotherapy and related services allowed by
Medicare in 2001 did not meet program requirements, resulting in $75 million in improper
payments. In addition, in the absence of national guidance, carriers have implemented policies
that are inconsistent with the standards of the Joint Task Force on Practice Parameters, which
represents 95 percent of all allergists and immunologists. Care provided to approximately
70 percent of Medicare beneficiaries who received allergen immunotherapy in 2001 was
inconsistent with professionally recognized standards of care.
Recommendation(s): CMS should require carriers to educate physicians who provide allergen
immunotherapy to Medicare beneficiaries about coverage, coding, and documentation
requirements and develop national coverage criteria for allergen immunotherapy based on
professionally recognized standards of health care.
Savings: $75 million*
*$75 million was improperly paid in 2001 based on a national projection of a sample of allergy services randomly
selected from the Medicare 2001 National Claims History Data File.

Status: In its comments on our report, CMS did not indicate whether it concurred or did not
concur with our recommendations. In its comments, CMS stated that it was prepared to develop
and disseminate educational materials and develop new coverage criteria for allergen
immunotherapy services. The agency also commented that it had identified two options for
developing national coverage criteria for allergen immunotherapy. In April 2008, CMS
informed us that its Office of Clinical Standards and Quality was in the process of drafting
language and recommendations that can be incorporated into the “Medicare Learning Network
Matters” article. These articles are designed to inform physicians, providers, and suppliers about
the latest changes to the Medicare Program.
Report(s):       OEI-09-00-00531; issued 02/06




Previous Monetary Recommendations                                                                         Page 19
Other Medicare Reimbursement

Reduce Improper Use of Modifier 59 To Bypass Medicare’s National Correct
Coding Initiative Edits
Background: In January 1996, CMS began the Medicare National Correct Coding Initiative
(NCCI) to promote correct coding by providers and to prevent Medicare payment for improperly
coded services. The initiative consists of automated edits that are part of the carrier’s
claims-processing systems. Specifically, NCCI edits contain pairs of Healthcare Common
Procedure Coding System codes that generally should not be billed together by a provider for a
beneficiary on the same date of services. All code pairs are arranged in a column 1 and column 2
format. Claims given the column 2 code are generally not payable with the column 1 code.
Under certain circumstances, a provider may bill for two services in an NCCI code pair and
include a modifier on that claim that would bypass the edit and allow both services to be paid.
Modifier 59 could be attached in that instance. Modifier 59 is used to indicate that a provider
performed a distinct procedure or service for a beneficiary on the same day as another procedure
or service.
Finding(s): Medicare allowed payments for 40 percent of code pairs in FY 2003 that did not
meet program requirements, resulting in $59 million in improper payments. Modifier 59 was
used inappropriately with 15 percent of the code pairs because the services were not distinct
from each other. We also found that 11 percent of code pairs billed with modifier 59 were paid
when modifier 59 was billed with the incorrect code. In addition, most carriers did not conduct
reviews of modifier 59; for those that did, we found that providers had an error rate of 40 percent
or more for services billed with modifier 59.
Recommendation(s): CMS should encourage carriers to conduct prepayment and postpayment
reviews of the use of modifier 59. Also, CMS should ensure that the carrier’s claims-processing
systems pay claims with modifier 59 only when the modifier is billed with the correct code.
Savings: $59 million*
*Based on a national projection of Medicare claims, $59 million was improperly paid for services in FY 2003 that
did not meet the Medicare program requirements.

Status: CMS concurred with our recommendations to encourage carriers to conduct prepayment
and postpayment reviews of the use of modifier 59 and to ensure that carriers’ claims-processing
systems pay claims only when modifier 59 is billed with the secondary code. In April 2006,
CMS published clarifying guidance to Chapter 4 of the “Medicare Claims Processing Manual,”
which includes the use of Modifier 59 (CR 4388). However, CMS has not yet implemented an
edit to ensure correct coding.
Report(s):       OEI-03-02-00771; issued 11/05




Previous Monetary Recommendations                                                                         Page 20
Medicare Managed Care

Modify Payments to Managed Care Organizations
Background: The BBA of 1997 established the Medicare+Choice (M+C) program with the
primary goal of providing a wider range of health plan choices to Medicare beneficiaries. The
Act also modified the payment methodology under the program to correct excess payments,
reduce geographic variations in payments, and align payments to reflect beneficiaries’ health
status. The MMA of 2003 redesignated the M+C program as Medicare Advantage (MA) and
increased payments.
Finding(s): Based on our previous reviews, studies by other agencies, and MA organization
data, we concluded that MA organizations received more than adequate funds to deliver the
Medicare package of covered services. The data and estimates used as the basis to calculate
monthly capitation payments to MA organizations were flawed, resulting in higher-than-
necessary payments. Medicare payments funded excessive administrative costs, and MA
organizations did not account for investment income earned on Medicare funds.
Another factor contributing to the flaw in the 1997 managed care base rates was the inclusion of
improper payments made in the Medicare fee-for-service (FFS) expenditures as identified in our
review of Medicare’s 1996 and 1997 financial statements. Because the standardized county rates
for 1997 were calculated using 1996 base FFS expenditure data, the overpayment errors carried
over to the 1997 managed care rates. We estimated the 1996 error rate as 14 percent of the total
FFS benefit payments.
Recommendation(s): CMS should modify monthly capitation rates to a level fully supported by
empirical data.
Savings: $1.97 billion*
*Estimated savings are based on the 3.077-percent overstatement of 1997 base rates applied to the 2006 managed
care payments

Status: CMS did not concur with our recommendation to reduce payments to MAs, noting that
the BBA of 1997 and the BBRA of 1999 had increased these payments. Because the 1997 base
rate was flawed, we continue to have concerns that the Federal payment to MAs is excessive.
We plan to update our work to examine MA organization payments as a result of the legislative
changes.
Report(s):       OAS-14-00-00212; issued 09/00




Previous Monetary Recommendations                                                                       Page 21
Medicare Managed Care

Place a Ceiling on Administrative Costs Included in Managed Care Organizations’
Rate Proposals
Background: Each MA organization is required to submit a bid proposal (formerly adjusted
community rate proposals) to CMS before the beginning of the contract period. Administrative
costs, which are one component of the proposal, include costs associated with facilities,
marketing, taxes, depreciation, reinsurance, interest, and other nonmedical compensation. CMS
does not require a reasonable percentage or ceiling on the administrative cost rate proposed, as it
does in other areas of the Medicare program.
Finding(s): We found that, as a percentage of the total rate proposed, the administrative rate
varied widely among MA organizations reviewed, regardless of the type of MA organization
(individual practice association, group, or staff) or the tax status (profit or nonprofit). For the
1999 rate proposals, the amount allocated for administrative purposes ranged from a high of
32 percent to a low of 3 percent. In addition, our reviews of the administrative costs included in
the 1997 proposals submitted by nine MA organizations found that $66.3 million of the actual
administrative costs incurred would have been recommended for disallowance had they been
required to follow Medicare’s general principle of paying only reasonable costs. In a subsequent
review of 10 MA organizations’ proposals for 2000, we found that $97.1 million in base-year
administrative costs would have been recommended for disallowance had the MA organizations
been required to follow Medicare’s general principle of paying only reasonable costs.
Recommendation(s): CMS should institute a reasonable ceiling on the administrative costs
permitted in an MA organization proposal.
Savings: TBD
Status: In its comments on the draft of our January 2000 report, CMS did not concur with our
recommendation, stating that it expected some MAs to have higher administrative costs than
others, depending on how they are structured. CMS also noted that a ceiling on administrative
costs may discourage MAs from developing cost-efficient plans. We plan to update our work to
examine administrative costs under provisions of the MMA of 2003.
Report(s):     OAS-14-98-00210; issued 01/00
               OAS-03-98-00046; issued 01/00
               OAS-03-01-00017; issued 11/01




Previous Monetary Recommendations                                                           Page 22
Medicaid Reimbursement

Limit Enhanced Payments to Cost and Require That Medicaid Payments Returned
by Public Providers Be Used To Offset the Federal Share
Background: Under Medicaid upper payment limit (UPL) rules, States are permitted to
establish payment methodologies that allow for enhanced payments to non-State-owned
government providers, such as county nursing facilities and hospitals. The enhanced payments,
which trigger Federal matching payments, are in addition to the basic payment rates for
Medicaid providers.
Finding(s): Enhanced payments to local-government-owned providers were not based on the
actual cost of providing services to Medicaid beneficiaries. In addition, a large portion of the
enhanced payments were not retained by the health care facilities to provide services to resident
Medicaid beneficiaries. Instead, some funds were transferred back to the States for other uses.
Recommendation(s): CMS should provide States with definitive guidance in calculating the
UPL, which should include using facility-specific UPLs that are based on actual cost report data,
and CMS should require that the return of Medicaid payments by a county or local government
to the State be declared a refund of those payments and thus be used to offset the Federal share
generated by the original payment.
Savings: $120 million*
*In its January 2007 Notice of Proposed Rulemaking, CMS estimated that if payments to providers operated by
units of government were limited to cost and payments returned by providers were considered refunds, Federal
Medicaid outlays would be reduced by $120 million in the first year and rise to $1.2 billion in the fifth year. CMS
estimated that the final rule would result in a reduction of Federal Medicaid outlays of a total of
$3.87 billion over 5 years.

Status: In its comments on the draft of our September 2001 report, CMS partially concurred
with our recommendations, stating that it would consider further reforms if it finds that States,
under UPL rules, are continuing to use public health care facilities as transfer agents to leverage
Federal Medicaid funding. Subsequently, CMS published a Final Rule With Comment Period in
the Federal Register (72 Fed. Reg. 29748 (May 29, 2007)) that modified Medicaid
reimbursement. Consistent with our recommendations, this regulation requires that health care
providers retain the total Medicaid payments received. This change, in addition to the UPL
regulatory changes, will help ensure that Medicaid funds are used to provide necessary services
to Medicaid beneficiaries. However, implementation of this regulation was delayed by passage
of section 7002 of the U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and Iraq
Accountability Appropriations Act, 2007 (P.L. No. 110-28), which prohibited implementation of
CMS’s regulation for 1 year following the date of the law’s enactment on May 25, 2007.
Report(s):        OAS-03-00-00203; issued 02/01                       OAS-10-00-00011; issued 03/01
                  OAS-07-00-02076; issued 02/01                       OAS-04-00-02169; issued 05/01
                  OAS-05-00-00056; issued 03/01                       OAS-04-00-00140; issued 06/01
                  OAS-04-00-02165; issued 03/01                       OAS-03-00-00216; issued 09/01




Previous Monetary Recommendations                                                                            Page 23
Medicaid Reimbursement

Ensure Compliance With Requirements for Medicaid School-Based Health
Services
Background: Section 1903(c) of the SSA was amended in 1988 to make clear that Medicaid
payment was allowable for covered Medicaid services that are included in an individualized
education plan or individualized family service plan, as required by the Individuals With
Disabilities Education Act (IDEA).
Finding(s): Our reviews have identified Medicaid overpayments for school-based health
services, with the Federal share of the overpayments totaling an estimated $800 million. Many
of the services claimed lacked a referral by an appropriate medical professional or were not
provided by or under the direction of a qualified provider. These unallowable claims generally
occurred because States did not provide sufficient guidance to and oversight of local education
agencies, and rates were not developed in accordance with applicable Federal cost allocation
requirements or CMS program guidelines.
Recommendation(s): CMS should recover the overpayments identified during our audits of
school-based claims in individual States. In addition, States should disseminate CMS guidance
and other information to the local education agencies in a timely manner, monitor local
education agencies to ensure compliance with Federal and State requirements, and assist the
local education agencies in developing written policies and procedures that require service
providers to document all health services and to retain those records for review.
Savings: TBD
Status: CMS concurred with our recommendations to address overpayments, indicating that it
would recover costs not allowed by individual State plans. CMS reported to us that it began
recovering overpayments in 2003. We note through our continuing work in this area that CMS
has also undertaken a significant effort to bring State plans into compliance with Federal law,
regulations, and policy in the coverage areas that pertain to Medicaid services delivered in school
settings. In the December 28, 2007, Federal Register, a final regulation was published, to
eliminate reimbursement under Medicaid for school administration expenditures and costs
related to the transportation of school-aged children between home and school. However, under
section 206 of the Medicare, Medicaid, and SCHIP Extension Act of 2007, signed on
December 29, 2007, there will be a 6-month delay in implementing these changes to ensure that
2007-2008 school-year budgets are not affected.
Report(s):     OAS-04-00-02161; issued 11/01               OAS-05-02-00049; issued 12/03
               OAS-10-01-00011; issued 05/02               OAS-06-02-00037; issued 01/04
               OAS-01-01-00006; issued 06/02               OAS-02-02-01030; issued 02/04
               OAS-10-01-00006; issued 08/02               OAS-07-02-02099; issued 02/04
               OAS-06-01-00077; issued 10/02               OAS-01-02-00014; issued 02/04
               OAS-02-02-01018; issued 12/02               OAS-04-01-00005; issued 05/04
               OAS-03-01-00224; issued 03/03               OAS-02-03-01008; issued 08/04
               OAS-05-02-00023; issued 03/03               OAS-01-02-00016; issued 09/04
               OAS-02-02-01022; issued 04/03               OAS-01-03-00004; issued 01/05
               OAS-06-01-00083; issued 04/03               OAS-01-04-00004; issued 01/05
               OAS-01-02-00006; issued 05/03               OAS-07-03-00154; issued 04/05
               OAS-10-02-00008; issued 07/03               OAS-02-02-01029; issued 06/05
               OAS-01-02-00009; issued 07/03               OAS-05-02-00050; issued 08/05
Previous Monetary Recommendations                                                          Page 24
Medicaid Reimbursement

Address and Resolve Excessive Medicaid Disproportionate Share Hospital
Payments
Background: Section 1923 of the SSA, as amended by the OBRA of 1993, requires that States
make Medicaid disproportionate share hospital (DSH) payments to hospitals that serve
disproportionate numbers of low-income patients with special needs. Section 1923(g) of the
SSA limits these payments to a hospital’s uncompensated care costs, which are the annual costs
incurred to provide services to Medicaid and uninsured patients less payments received for those
patients.
Finding(s): Nine of the ten States reviewed did not comply with the hospital-specific DSH
limits imposed by section 1923(g) of the Act. As a result, payments exceeded the hospital-
specific limits by about $1.6 billion ($902 million Federal share); an estimated $679 million of
the $902 million was based on historical costs. States did not later adjust the payments using
actual costs. States also made about $223 million in excess payments because they included
unallowable costs in their calculations of hospital-specific limits. In addition, three States
required hospitals to return DSH payments totaling approximately $3.6 billion through
intergovernmental transfers.
Recommendation(s): CMS should ensure resolution of the monetary recommendations to
individual States regarding DSH payments that exceeded the hospital-specific limits. It should
establish regulations requiring States to (1) implement procedures to ensure that future DSH
payments are adjusted to actual incurred costs, (2) incorporate these procedures into their
approved State plans, and (3) include only allowable costs as uncompensated care costs in their
DSH calculations. CMS should strengthen its review and approval of State plans to ensure
consistency with Federal requirements and use results of audits conducted under the MMA in its
review process.
Savings: TBD
Status: CMS concurred with our recommendations, indicating in its comments that it had
published a Notice of Proposed Rulemaking in August 2005 to implement new Medicaid DSH
payment reporting and auditing provisions of section 1001(d) of the MMA of 2003. CMS has
informed us that it is reviewing comments on the proposed regulation and working on issuing the
final regulation. The agency also informed us that it has begun resolution of monetary
recommendations identified in some individual DSH audits in FY 2005 and that resolution of
recommendations in other audits is in progress.
Report(s):     OAS-06-03-00031; issued 03/06




Previous Monetary Recommendations                                                          Page 25
Medicaid Reimbursement

Ensure That Medicaid Reimbursement for Brand-Name Drugs Accurately Reflects
Pharmacy Acquisition Costs
Background: Most States use the average wholesale price (AWP) minus a percentage discount,
which varies by State, as a basis for reimbursing pharmacies for prescription drugs. We
estimated the actual acquisition costs for 200 brand name drugs with the highest Medicaid
reimbursement for CY 1999.
Finding(s): State pharmacy reimbursement formulas discount below the AWP averaged
10.31 percent nationally in 1999. We found that this discount is not sufficient to ensure that drug
reimbursement accurately reflects pharmacy acquisition costs. Our review, based on CY 1999
data, estimated that the actual acquisition cost for brand-name drugs averaged 21.84 percent
below the AWP. We estimated that the Medicaid program could have saved as much as
$1.08 billion if reimbursement had been based on a 21.84-percent average discount below the
AWP. This projection was based on the 200 brand-name drugs with the highest Medicaid
reimbursement for CY 1999.
Recommendation(s): CMS should encourage the States to more closely align pharmacy
reimbursement with the actual acquisition cost of brand-name drugs paid by pharmacies in their
States. We recommended a four-tier approach to reimbursement as follows: single-source
innovator drugs, multiple-source innovator drugs without Federal upper limits (FUL), multiple-
source noninnovator drugs without FULs, and multiple-source drugs with FULs.
Savings: $1.08 billion*
*Estimated savings are based on a 21.84-percent average discount below AWP for the 200 brand-name drugs with
the highest Medicaid reimbursement for CY 1999.

Status: In its comments on the draft of our 2001 report, CMS concurred with our
recommendation, stating that it was working with States to review their estimates of acquisition
costs in light of our findings. In addition, the President’s FY 2006 budget proposed a legislative
change that would limit the Federal reimbursement to States for Medicaid pharmacy payments to
the amount that a State would have paid, in the aggregate, for covered outpatient drugs based on
the manufacturers’ average sales prices (ASP). The proposed legislative change was not enacted
or included in the President’s FYs 2007 or 2008 budgets. We plan to continue to monitor the
pricing of Medicaid drug reimbursements for brand-name drugs.
Report(s):      OAS-06-00-00023; issued 08/01
                OAS-06-02-00041; issued 09/02




Previous Monetary Recommendations                                                                    Page 26
Medicaid Reimbursement

Ensure That Medicaid Reimbursement for Generic Drugs Accurately Reflects
Pharmacy Acquisition Costs
Background: Most States use the AWP minus a percentage discount, which varies by State, as
a basis for reimbursing pharmacies for prescription drugs. For certain multiple source drugs,
CMS sets FULs, which cap Medicaid reimbursement amounts for those drugs. We estimated the
actual acquisition costs for 200 generic drugs with the highest Medicaid reimbursement for
CY 1999.
Finding(s): State pharmacy reimbursement formulas discount below the AWP averaged
10.31 percent nationally in 1999. We found that this discount is not sufficient to ensure that drug
reimbursement accurately reflects pharmacy acquisition costs. Using CY 1999 data, we
estimated that the actual acquisition cost for generic drugs averaged 65.93 percent below the
AWP. We estimated that changing the reimbursement policy to a tiered approach consistent
with our recommendations could have saved the Medicaid program as much as $470 million for
the 200 generic drugs with the highest Medicaid reimbursement for CY 1999.
Recommendation(s): CMS should encourage the States to more closely align pharmacy
reimbursement with the actual acquisition costs of generic drugs paid by pharmacies in their
States. We recommended a four-tier approach to reimbursement as follows: single-source
innovator drugs, multiple-source innovator drugs without FULs, multiple-source noninnovator
drugs without FULs, and multiple-source drugs with FULs.
Savings: $470 million*
*Estimated savings are based on the 200 generic drugs with the highest Medicaid reimbursement for
CY 1999.

Status: In its comments on the draft of our March 2002 report, CMS concurred with our
recommendation, indicating that it would work with States to strongly encourage them to review
their estimates. In April 2008, CMS informed us that it would follow up to ensure that States
take OIG’s findings into account. The Deficit Reduction Act of 2005 (DRA) changed the FUL
calculation for generic drugs. For generic drugs with FULs, the Federal Government capped
generic Medicaid drug payment at 250 percent of the lowest average manufacturer price (AMP)
for a generic version of a drug. CMS promulgated a final rule pursuant to this change in July
2007 (72 Fed. Reg. 39142). As a result of litigation challenging the validity of this rule, a
Federal court has issued an injunction in December 2007 against its implementation to the extent
that the rule affects reimbursement rates. We plan to continue to monitor the pricing of
Medicaid drug reimbursements for generic drugs.
Report(s):       OAS-06-01-00053; issued 03/02
                 OAS-06-02-00041; issued 09/02




Previous Monetary Recommendations                                                                   Page 27
Medicaid Drug Rebates

Establish Connection Between the Calculation of Medicaid Drug Rebates and
Drug Reimbursement
Background: The OBRA of 1990 authorized States to collect rebates from drug manufacturers
for drug purchases made under the Medicaid program. Rebates are calculated using the AMP,
the manufacturer’s best price, and other factors. In contrast, most States reimburse pharmacies
for Medicaid prescription drugs based on the AWP of a drug. We calculated the rebates for the
100 brand-name drugs that had the highest Medicaid reimbursement for 1994 through 1996
using the AWP instead of the AMP.
Finding(s): Requiring manufacturers to pay Medicaid drug rebates using the same basis as
reimbursements made to pharmacies would establish a much needed connection between the
calculation of Medicaid drug rebates and the calculation of Medicaid reimbursement for drugs at
the pharmacy level.
Recommendation(s): CMS should seek legislation that would require Medicaid drug rebates
and reimbursements to be developed using the same basis or study viable alternatives to the
current program.
Savings:      TBD
Status: CMS did not concur with our recommendation, stating that it did not believe that a
legislative proposal was feasible at the time of our report. However, in accordance with the
DRA of 2005, in July 2006, CMS began providing States with AMP data on a monthly basis.
Under the DRA, States may choose, but are not required, to use AMP data to revise their current
reimbursement formulas. In July 2007, pursuant to the DRA, CMS promulgated a final rule
regarding making AMP data available to States. As a result of litigation challenging the validity
of the new rule, however, a Federal court has issued an injunction in December 2007, prohibiting
CMS from disseminating AMP data. We are concerned that until all States use AMPs in their
reimbursement formula, there will be no connection between reimbursement and rebates. We
plan to continue monitoring the issue.
Report(s):    OAS-06-97-00052; issued 05/98




Previous Monetary Recommendations                                                         Page 28
Medicaid Drug Rebates

Implement an Indexed Best-Price Calculation in the Medicaid Drug Rebate
Program
Background: The OBRA of 1990 authorized States to collect rebates from drug manufacturers
for drug purchases made under the Medicaid program. Rebates are calculated using the AMP,
the manufacturer’s best price, and other factors. To discourage drug manufacturers from raising
prices, the basic rebate amount for brand-name drugs is increased by the amount that the AMP
increases over and above the Consumer Price Index for all urban consumers. However, no
similar indexing of best price is made, even though best price is part of the basic rebate
calculation for brand-name drugs.
Finding(s): Since the inception of the Medicaid drug rebate program, drug manufacturers have
consistently increased best prices in excess of the Consumer Price Index for all urban consumers.
To determine the potential effect that increases in best price (beyond the rate of inflation) had on
rebates, we calculated the difference in rebates that would have resulted from using an indexed
best price. We estimated that in 1993 drug rebates would have increased by about $123 million
for the 406 drugs included in our review.
Recommendation(s): CMS should pursue legislation to index the best-price calculation in the
Medicaid drug rebate program to the Consumer Price Index-urban.
Savings: $123 million*
*This savings estimate is based on the best price indexing in 1993 of the 406 drugs included in our review.

Status: CMS did not concur with this recommendation. In its comments on our 2002 “Red
Book,” CMS stated that it believed that savings would be achieved through a President’s budget
proposal for a legislative change that would have based the Medicaid drug rebate on the
difference between AWP and the best price of the drug. We plan to continue monitoring the
drug rebate program through audits focusing on enhancing the collection of rebates and
providing potential savings to the rebate program.
Report(s):        OAS-06-94-00039; issued 10/95




Previous Monetary Recommendations                                                                             Page 29
Other Medicare and Medicaid Issues

Establish a National Medicaid Credit Balance Reporting Mechanism
Background: CMS does not require State agencies to routinely monitor providers’ efforts to
identify and refund Medicaid credit balances in patient accounts.
Finding(s): Two of our reports have indicated that significant outstanding Medicaid credit
balances existed nationwide. Between May 1992 and March 1993, we reported that many State
agencies’ efforts were inadequate to ensure that, nationwide, providers were identifying the
majority of Medicaid credit balances and remitting overpayments in a timely manner.
Recommendation(s): CMS should establish a national Medicaid credit balance reporting
mechanism similar to that used for Medicare Part A. Also, CMS should require its regional
offices to actively monitor the reporting mechanism established.
Savings:      TBD
Status: Initially, when commenting on the 1995 report, CMS concurred with our
recommendation to establish a national Medicaid credit balance reporting mechanism similar to
that used for Medicare Part A. Subsequently, CMS decided not to do so, citing the uncertain but
minimal savings potential and the administration’s commitment to enhancing States’ flexibility
and, specifically, to avoiding the imposition of an unfunded mandate.
Report(s):    OAS-04-92-01023; issued 03/93
              OAS-05-93-00107; issued 05/95




Previous Monetary Recommendations                                                       Page 30
Public Health
Health Resources and Services

Eliminate Excessive Costs in the 340B Drug Discount Program
Background: Section 340B of the Public Health Service Act (the PHS Act) created the 340B
Drug Pricing Program to lower drug prices for more than 12,300 entities, including community
health centers, public hospitals, and various Federal grantees. Pharmaceutical manufacturers
calculate the 340B discount using a specified formula and must sell their products at or below
this price to continue to have their products covered by the Medicaid program. The Health
Resources and Services Administration (HRSA) Pharmacy Affairs Branch administers the
program for the thousands of enrolled entities nationwide estimated to have spent $3.4 billion
on drugs in 2003.
Finding(s): Because of systemic problems with the accuracy and reliability of the
Government’s record of 340B ceiling prices, we found that HRSA could not adequately oversee
the 340B Drug Pricing Program. HRSA lacked the oversight mechanisms and authority to
ensure that 340B entities pay at or below the 340B ceiling price. We found that, in a single
month in 2005, 14 percent of total purchases made by 340B entities exceeded 340B ceiling
prices, resulting in total projected overpayments of $3.9 million.
Recommendation(s): HRSA should improve its oversight of the 340B Program to ensure that
entities are charged at or below the 340B ceiling price and should work with CMS to ensure
accurate and timely pricing data for the Government’s official record of 340B ceiling prices.
HRSA should take four steps to strengthen its administration of the 340B Drug Discount
program: (1) establish detailed standards for the calculation of 340B ceiling prices, (2) institute
oversight mechanisms to validate its 340B price calculations and the prices charged to
participating entities, (3) seek legislative authority to establish penalties for violations of the PHS
Act, and (4) obtain consistent unit of measure and package size data to accurately calculate 340B
ceiling prices.
Savings: $46.8 million to federally supported covered entities*
*Estimated savings based on $3.9 million in overpayments by federally supported covered entities in 1 month in
2005, multiplied by 12 to calculate savings for 1 year. Additional indirect savings to the Department are likely but
have not been calculated.

Status: HRSA concurred with our recommendations and stated that it had taken steps to more
closely monitor the prices paid by the 340B program. In its comments on our 2005 report,
HRSA stated that it anticipated promulgating a penny price policy in conjunction with
formalizing the instructions for the calculation of 340B ceiling prices. The agency indicated that
in April 2007, it had implemented a 1-year 340B Drug Pricing Program pilot project requesting
manufacturers to voluntarily submit their prices for comparison with the agency’s ceiling prices.
HRSA would then review the data that manufacturers and entities voluntarily submitted, to the
extent that resources permitted. The agency also told us that it was assessing the need for




Previous Monetary Recommendations                                                                            Page 31
seeking the authority and resources needed to impose fines and civil penalties for violations of
section 340B of the PHS Act; that it was working with CMS to maximize the acquisition of
manufacturers’ data, as well as resolve problems related to missing data; and that it planned to
publish detailed standards for the calculation of 340B ceiling prices on its Web site.
Report(s):     OEI-05-02-00072; issued 10/05           OEI-05-02-00073; issued 07/06




Previous Monetary Recommendations                                                           Page 32
Aging

Use Voluntary Contributions To Expand Services for the Elderly
Background: Current Administration on Aging (AoA) regulations permit States to use
voluntary contributions to meet cost-sharing or matching grant requirements. However, during
the audit period, this use of contributions was contrary to the Older Americans Act (OAA),
which requires that voluntary contributions be used to increase services for the elderly.
Finding(s): According to their financial status reports, 28 States and the District of Columbia
erroneously used $90.8 million in voluntary contributions in FY 1996 to meet cost-sharing or
matching grant requirements.
Recommendation(s): AoA should revise its regulations in accordance with the Older
Americans Act.
Savings: $90.8 million*
*Estimated savings are based on information in FY 1996 financial status reports for all States, the District of
Columbia, and Puerto Rico.

Status: AoA concurred with the recommendation in its comments on the draft of our report.
Subsequently, AoA informed us that because the OAA Amendments of 2006 (P.L. No.
109-365) (October 17, 2006); 120 Stat. 2522)) changed provisions relating to voluntary
contributions, it was in the process of determining the kinds of regulatory changes needed as a
result. To date, no regulatory changes have been made.
Report(s):        OAS-12-00-00002; issued 02/01




Previous Monetary Recommendations                                                                             Page 33
Departmentwide and Cross-Cutting
Issues

Advise States of Their Authorities To Collect From Noncustodial Parents With the
Ability To Contribute Towards Their Children’s Medicaid or State Children’s
Health Insurance Program Costs
Background: Current regulations require the State Title IV-D agency to petition the court or
administrative authority, unless the custodial parent and children have satisfactory health
insurance other than Medicaid, to include health insurance that is available to the noncustodial
parent at reasonable cost in new or modified orders for support. Title XXI of the SSA, which
authorizes SCHIP, is silent with regard to collecting SCHIP costs from noncustodial parents who
have medical support orders.

Finding(s): States can reduce State and Federal Medicaid costs by increasing the number of
noncustodial parents who provide medical support for their children. Although Federal
regulations authorize States to recover Medicaid costs from third-party payers, Title IV-D
regulations do not provide specific guidance for collecting Medicaid costs from noncustodial
parents who have the financial ability to pay and who do not have affordable employer-
sponsored health coverage available. Moreover, Medicaid regulations do not address how State
Medicaid agencies should coordinate with State Title IV-D agencies and how the States should
establish and administer Medicaid fee-for-service recoveries.

States also have an opportunity to enroll uninsured Title IV-D children in SCHIP and provide a
means for noncustodial parents to fulfill their medical support obligations. Unlike Federal
Medicaid laws, SCHIP laws are silent with regard to an “assignment of rights” that would allow
States to recover children’s medical expenses from their noncustodial parents. Although some
States have taken steps to collect SCHIP costs from noncustodial parents, others have questioned
their authority to do so or expressed concern about the costs that would be incurred.

Recommendation(s): CMS should (1) clarify third-party liability regulations to assist State
Medicaid agencies in coordinating with State Title IV-D agencies to collect Medicaid costs from
noncustodial parents with medical support orders and (2) seek legislation that would allow States
to accumulate medical support payments to offset Medicaid fee-for-service costs for a reasonable
period. CMS should also determine whether additional Federal funds are needed to assist States
in interfacing their Title IV-D and SCHIP databases and implementing a process to collect
SCHIP costs from noncustodial parents and, as appropriate, provide such funds.

Savings:         $99 million – Medicaid*
                 $14 million – SCHIP**

*Based on an eight-State review, we estimated that Title IV-D children who were enrolled in Medicaid had
noncustodial parents who were financially able to contribute $99 million based on the most recent data available
from each State in 2001 or 2002.




Previous Monetary Recommendations                                                                          Page 34
** Based on an eight-State review, we estimated that Title IV-D children who received SCHIP benefits had
noncustodial parents who could potentially contribute $14 million toward the SCHIP premiums based on the most
recent data available from each State in 2001 or 2002.

Status: CMS did not concur with our recommendation to clarify third-party liability regulations;
it agreed, however, to work with us to draft legislation to allow States to accumulate medical
support payments because existing Federal law and regulations prohibit States from
accumulating additional medical support payments. As to our recommendations concerning
SCHIP costs, CMS did not concur that issuing formal guidance was necessary but agreed to alert
States to their option to pursue the Federal and State shares of these costs. Subsequent to our
reports, CMS informed us that it had provided guidance to States on the collection of Medicaid
costs from available noncustodial employer-sponsored health care coverage and on their
authority under Federal law to collect SCHIP costs from noncustodial parents during a series of
Medical Support Collaboration meetings in 2005 sponsored by Administration for Children and
Families (ACF). CMS also noted that States had the authority to fund the administrative costs of
building an infrastructure with the State Title IV-D agency under their 10-percent administrative
SCHIP cap and recognized that there is no mechanism in SCHIP to provide States with
additional funding if they spend funds up to the 10-percent administrative cap. We continue to
recommend that CMS consider alternative methods to ensure that States receive adequate funds,
especially if States are at or near their 10-percent administrative cap. We also plan to perform
follow-up work in FY 2009 to determine whether appropriate action has been taken on our
recommendations.

Report(s):       OAS-01-03-02502; issued 05/05
                 OAS-01-03-02501; issued 06/05




Previous Monetary Recommendations                                                                      Page 35
New Nonmonetary Recommendation
Medicare and Medicaid
Hospice

Improve Oversight of Medicare Hospices
Background: Section 1812(a) of the SSA provides coverage of hospice care for beneficiaries
who qualify for Medicare Part A and are terminally ill. In recent years, this Medicare benefit has
grown in terms of patients served, expenditures, and number of hospices. Organizations that
provide hospice care must be certified by a State agency or a recognized accreditation
organization as meeting minimum participation standards prescribed by CMS. CMS uses
Federal comparative surveys and annual performance reviews to evaluate State agencies’ survey
and certification operations. Although the frequency of certification is not addressed in statute or
regulations, CMS policy requires hospice recertification every 6 years.
Finding(s): We found that, as of July 2005, 86 percent of hospices had been certified within
6 years, as required, while 14 percent averaged 3 years past due. For the period of our review,
neither law nor regulation specified certification frequency, but CMS policy required hospice
certification every 6 years. Health deficiencies were cited for 46 percent of hospices surveyed
and for 26 percent of hospices investigated for complaints. The most frequently cited health
deficiencies for both surveys and investigations centered on patient care planning and quality.
We also found that CMS and State agencies rarely used methods other than certification surveys
and complaint investigations to monitor hospice performance and enforce standards. Both CMS
and State agencies infrequently analyzed existing hospice performance data, although CMS had
directed State agencies for FY 2006 to target 5 percent of the hospices most at risk for having
quality problems. At the time of our review, CMS had not provided State agencies any direct
guidance or specific criteria to identify the at-risk hospices.
Recommendation(s): CMS should provide guidance to State agencies and CMS regional
offices regarding analysis of existing data and identification of at-risk hospices, include hospices
in Federal comparative surveys and annual State performance reviews, seek regulatory or
statutory changes to establish specific requirements for the frequency of hospice certification,
and seek legislation to establish additional enforcement remedies for poor hospice performance.
Status: CMS partially concurred with our recommendations. In its comments on our report,
CMS indicated that it had developed reports to support the oversight efforts of the regional
offices and was exploring and implementing methods to become more efficient in targeting its
resources toward providers most in need of closer oversight. CMS stated that its management
challenge was to make the most effective use of appropriated resources. CMS did not concur
with the recommendation to include hospice in Federal comparative surveys, citing budget
limitations, and it did not agree to make regulatory changes to require shorter timeframes for
hospice certification, stating that it considered the issue to be a statutory matter for Congress.
We continue to recommend that CMS seek regulatory or statutory changes to establish specific
requirements for the frequency of hospice performance and enforcement remedies for poor
hospice performance.
Report(s):     OEI-06-05-00260; issued 04/07




New Nonmonetary Recommendations                                                              Page 37
Other Medicare and Medicaid Issues

Increase Medicaid Fraud Referrals
Background: The passage of the DRA of 2005 focused attention on Medicaid program
integrity. Within most States, two agencies share primary responsibility for protecting the
integrity of the Medicaid program. The State Medicaid agency is responsible for ensuring proper
payment, recovering misspent funds, identifying suspected Medicaid fraud, conducting a
preliminary review to determine the extent of potential fraud, and making referrals to its
Medicaid Fraud Control Unit (MFCU). Each MFCU is responsible for reviewing the referrals
received from the State Medicaid agency and other sources to determine whether the issues
involved merit criminal and/or civil investigation.
Finding(s): We found that 84 percent of MFCUs in this study reported receiving less than half
of all suspected fraud referrals from their respective State Medicaid agencies. We also found
that the percentage of MFCU-accepted referrals contributed by State Medicaid agencies
remained constant during the 3-year study period at 33 percent; yet among the States, referrals
from individual State Medicaid agencies to their respective MFCUs varied greatly.
Recommendation(s): CMS should establish fraud referral performance standards for State
Medicaid agencies.
Status: CMS concurred with our recommendation to work toward the establishment of fraud
referral performance standards. CMS has been working with OIG, State Medicaid agencies, and
MFCUs in a collaborative effort to develop a common definition of referral and minimum
criteria set. In November 2007, representatives of these organizations met and drafted a criteria
set for consensus. Subsequently, the draft criteria were presented to stakeholders for comments
which CMS received in February 2008. As of February 2008, CMS and OIG were reviewing the
comments and were working toward incorporating them into the proposed referral standard
definition. In April 2008, CMS informed us that it plans to finalize the fraud referral standards
by September 2008.
Report(s):    OEI-07-04-00181; issued 01/07




New Nonmonetary Recommendations                                                           Page 38
Medicaid Drugs

Review Impact of New Federal Upper Limit Calculations
Background: Pursuant to section 1927(e) of the SSA, CMS is required to establish FUL to
reduce the amount that Medicaid reimburses for multiple-source drugs. Prior to 2007, Federal
regulations set the FUL amount at 150 percent of the published price for the least costly
therapeutically equivalent drug. Section 6001(a) of the DRA makes significant changes to the
FUL program. As of January 1, 2007, a drug needs only two therapeutically equivalent versions
to be included on the FUL list, and FUL amounts are to be based on 250 percent of the lowest
reported AMP for each drug rather than 150 percent of the lowest price published in the national
compendia. In response to these changes, industry groups have expressed concerns that
pharmacies will not be able to acquire drugs for prices at or below the new FUL amounts. The
Congressional Budget Office estimates that changes to the FUL threshold will reduce Medicaid
expenditures for the FUL drugs by $3.6 billion over 5 years.
Finding(s): The FUL amounts set under the previous calculation method were more than double
the pharmacy acquisition costs for 23 of 25 selected high-expenditure Medicaid drugs in the
second quarter of 2006. Six of twenty-five selected high-expenditure drugs had estimated
average pharmacy acquisition costs that would be below the new FUL amounts. Among the
25 selected high-expenditure drugs, examining the volume-weighted AMPs helped identify
instances in which pharmacy acquisition costs may exceed the new FUL amounts. Under the
new calculation method established by the DRA, FUL amounts are likely to decrease
substantially. Furthermore, we found that the AMPs used to set a new FUL amounts may be
substantially lower than other AMPs associated with a drug (i.e., the second-lowest AMP and
volume-weighted AMP).
Recommendation(s): CMS should take steps to identify cases in which a new FUL amount
may not be representative of a drug’s acquisition cost to pharmacies and, in those situations,
determine the proper course of action (working with Congress if necessary). One option that we
recommended was that CMS issue a final regulation to remove the lowest AMP from the FUL
calculation when it is significantly lower than the volume-weighted AMP for a drug.
Status: CMS did not concur with our findings concerning the effect of the DRA-related changes
on the FUL calculation. It believed that we should have waited until the final AMP regulation
had been promulgated before completing this study and requested that we revise our analysis.
According to CMS, as of the first quarter of FY 2008, it changed the way it identifies FUL drugs
and calculated prices. The DRA drug provisions and this report supersede previous OIG reports
(OEI-03-02-00067 and OEI-03-04-00320) issued in 2004 with regard to the FUL. On July 6,
2007, CMS published a final rule with comment period detailing how AMP-based FUL amounts
would be calculated under the new guidelines established by the DRA. In December 2007, as a
result of litigation challenging the validity of the new rule, a Federal court has issued an
injunction prohibiting CMS from implementing it to the extent that the rule affects
reimbursement rates. OIG continues to monitor the appropriateness of FULs.
Report(s):    OEI-03-06-00400; issued 06/07




New Nonmonetary Recommendations                                                           Page 39
Medicaid Drugs

Assess the Use of New Drug Pricing Data in the Medicaid Program
Background: The DRA of 2005 required CMS to provide States monthly with AMP data for
prescription drugs covered by Medicaid starting in July 2006. The DRA also permits CMS to
collect and disseminate retail sales price (RSP) data for Medicaid-covered drugs to States. Our
recent studies have found that published prices, such as AWP and wholesale acquisition cost
used by States to estimate drug acquisition costs, are higher than prices based on actual sales
transactions. States are not required to use AMP or RSP data for Medicaid drug reimbursement.
Finding(s): As of July 2007, most States had not decided whether to use AMP and/or RSP data
for Medicaid drug reimbursement. Thirty-nine States had not decided whether to use AMP data
for Medicaid drug reimbursement. States raised concerns about the AMP data files that they
received from CMS, indicating that the AMP units appeared to be inconsistent with typical unit
definitions of drug products and requesting that the drug unit definition be included in the data
files. Forty-three States had not decided whether to use RSP data. States reported that they
wanted to know how RSP data would be determined and defined before deciding to use RSP
data.
Recommendation(s): CMS should explicitly detail AMPs’ definition and calculation, including
the definition of retail pharmacy class of trade, when promulgating new AMP regulations. It
should also provide unit definitions in AMP data files and furnish States with interim guidance
and/or information regarding AMP data before the final regulations are published. Finally, CMS
should explicitly detail RSPs’ definition, calculation, and method of collection when distributing
RSP data to States.
Status: Although it questioned the timing of our study, CMS generally concurred with our
recommendations and stated that it recognized that most States had not decided whether to use
AMP or RSP data for Medicaid drug reimbursement. CMS addressed the definition, calculation,
and method of collection of AMP in a final rule with comment, released July 6, 2007, that
includes revisions to the definition of the determination of AMP. In December 2007, a Federal
court issued a preliminary injunction prohibiting CMS from sharing AMP data with the States.
We will continue to monitor implementation of States’ use of AMP and/or RSP data for drug
reimbursement.
Report(s):     OEI-03-06-00490; issued 06/07




New Nonmonetary Recommendations                                                            Page 40
Health Resources and Services

Improve U.S. Public Health Service Commissioned Corps Response Operations
for Future Public Health Emergencies
Background: Agencies within and outside of HHS employ U.S. Public Health Service
Commissioned Corps (CC) officers to provide health care and related services in health
professional shortage areas. In addition, the Secretary of HHS has the authority to deploy the CC
in response to public health emergencies. Hence, CC officers must simultaneously fulfill their
responsibilities to their employer agencies and to the Corps. In August and September 2005,
respectively, Hurricanes Katrina and Rita struck the Gulf Coast. In response to health care and
public health needs in the affected areas, the Corps carried out the largest deployment in its 209-
year history. More than 2,100 officers worked with State, local, and private agencies in response
to the hurricanes.
Finding(s): We found that the CC provided valuable support to States, but more officers—
especially nurses, mental health professionals, and dentists—were needed. Although most
deployed officers met the CCs readiness standards, many lacked experience, effective training,
and familiarity with response plans. We also found that agencies were unwilling or unable to
allow some officers to deploy, while logistical difficulties delayed others’ arrival in the field.
Most officers were equipped adequately, but some lacked working communications devices and
other basic tools. We found that many officers personally incurred mission-related expenses and
some were not reimbursed promptly, which could affect their ability to deploy in future public
health emergencies.
Recommendation(s): The CC should institute more effective training for its officers, improve
the system used to contact officers for deployment, work with the Office of the Assistant
Secretary for Preparedness and Response (ASPR, formerly the Office of Public Health
Emergency Preparedness) to streamline deployment-related travel, stagger deployments to
ensure continuity of operations, improve its ability to coordinate mission assignments and
communications in the field, and ensure that all deployable officers have Federal Government
travel credit cards.
Status: The Assistant Secretary for Health concurred with our recommendations for improving
the CC’s response to public health emergencies and noted that our recommendations were being
addressed as part of the CCs comprehensive transformation process. In March 2008, the CC
reported to us that it had made progress in implementing the report recommendations by
instituting more effective deployment-related training and improving contact and communication
mechanisms for officers, staggering deployments to ensure continuity of operations, and
improving its ability to coordinate mission assignments and communications in the field. We
concur that the CC has implemented five of the six recommendations in our report; however, we
continue to support our recommendation that the Corps ensure that all deployable officers have
Federal Government travel cards and that the CC continue to work with ASPR to refine
procedures for reimbursement.
Report(s):     OEI-09-06-00030; issued 02/07




New Nonmonetary Recommendations                                                            Page 41
Health Resources and Services

Strengthen Oversight and Guidance for Use of Government Purchase Cards
During Emergencies
Background: The Government purchase card program was designed to save the Government
money by avoiding costly paperwork and to expedite the process of making purchases. In
response to Hurricane Katrina, P.L. No. 109-62 authorized agencies to streamline certain
purchasing requirements for procurement of supplies or services to support rescue and relief
operations. This law also raised the micropurchase threshold from $2,500 to $250,000 for
procurement of supplies or services to support Hurricane Katrina rescue and relief operations.
Finding(s): Fifteen percent of purchases made in response to Hurricane Katrina did not comply
with HHS guidelines and agency procedures related to three key elements. The elements of
noncompliance are lack of approving official review, use of Government purchase cards by
unauthorized persons, and insufficient purchase documentation. Additionally, cardholders had
concerns regarding the legality and complexity of some purchases and over half of cardholders
expressed the need for additional written guidance regarding emergency purchasing procedures.
Lastly, the Hurricane Katrina purchase data contained inaccuracies that could represent
challenges for oversight and tracking purposes.
Recommendation(s): The Assistant Secretary for Administration and Management (ASAM)
should provide additional written guidance on emergency purchasing procedures. This guidance
should include (1) examples of allowable and unallowable purchases in an emergency, (2) the
way to ensure delivery to a location other than the cardholder’s office, and (3) advice on locating
and communicating with vendors during an emergency. ASAM should also require training on
emergency purchasing procedures. Finally, ASAM should develop a tracking system for
monitoring Government purchase card purchases during emergency situations.
Status: ASAM concurred with these recommendations and stated that action had been taken to
implement them. In July 2007 correspondence, ASAM provided us with an updated Purchase
Guide Version 4.0 and Quick Reference Guide; ASAM stated that it had updated its training
class to reflect Version 4.0 enhancements and was exploring the feasibility of an automated,
enterprisewide purchase card system that could be used in all situations, including emergencies.
In March 2008, ASAM informed us that it had added a requirement to a task order to develop an
automated system to capture, track, and report on emergency purchase card transactions that will
be effective in November 2008. We continue to recommend that ASAM implement an
automated tracking system for monitoring Government purchase card purchases during
emergency situations.
Report(s):     OEI-07-06-00150; issued 05/07
               OEI-07-07-00430; issued 06/07




New Nonmonetary Recommendations                                                             Page 42
Children, Families, and Aging Issues

Strengthen Federal and State Oversight of Separate State Children’s Health
Insurance Program Fraud and Abuse Safeguards
Background: Federal and State governments jointly fund SCHIP to provide health assistance to
low-income children who do not qualify for Medicaid. States may structure their respective
SCHIP as an expansion of Medicaid, as a program separate from Medicaid, or as some
combination of these. As of January 2005, 39 States had all or some of their SCHIP separate
from Medicaid. Medicaid expansion programs are subject to the Medicaid integrity
requirements under Title XIX of the SSA. Separate SCHIP programs are subject to more
flexible SCHIP integrity regulations, which require that States establish procedures for ensuring
program integrity and detecting fraud and abuse. We examined the extent to which States had
met requirements to establish fraud and abuse safeguards.
Finding(s): The six States we reviewed met requirements for prevention and detection of fraud
and abuse by assigning responsibility to SCHIP contractors that had established such procedures.
However, one of the six States did not meet Federal requirements for investigating suspected
SCHIP fraud and abuse cases and referring cases to law enforcement. Although oversight
mechanisms in the six States addressed Federal requirements, they did not always enable States
to know how well SCHIP contractors were performing safeguard activities. Lastly, CMS relied
primarily on States for oversight of SCHIP fraud and abuse safeguards, although it had
completed some onsite reviews.
Recommendation(s): CMS should ensure that the noncompliant States institute procedures to
meet Federal requirements for investigating cases of suspected SCHIP fraud and abuse and
referring cases to law enforcement. CMS should also take steps to strengthen Federal and State
oversight of separate SCHIPs’ fraud and abuse safeguards.
Status: CMS did not indicate whether it concurred or did not concur with our recommendations.
In its comments, CMS suggested clarifying the language in our report to emphasize that the
SCHIP statute is not prescriptive in describing Federal oversight of fraud and abuse. CMS noted
that it had assisted States in strengthening fraud and abuse efforts, which included assessment of
its mechanisms and revision of the SCHIP annual report template to collect information from
States about their fraud and abuse safeguards. We continue to recommend that CMS implement
measures to ensure that noncompliant States institute procedures for investigating and referring
fraud and abuse cases.
Report(s):     OEI-06-04-00380; issued 03/07




New Nonmonetary Recommendations                                                            Page 43
Previous Nonmonetary
  Recommendations
Medicare and Medicaid
Medicare Hospitals

Improve Carrier Determination of Copayments for Medicare Mental Health
Services
Background: The Medicare Supplementary Medical Insurance benefit program (Part B) covers
physician services, outpatient care, and some other services not covered by Medicare’s Hospital
Insurance benefit program (Part A). In general, beneficiaries are responsible for copayments of
20 percent of the approved amount for most Part B services. Outpatient mental health services
are covered under Part B. However, section 1833(c) of the SSA limits Medicare payment to
62.5 percent of the expenses (Medicare-approved amount) for services in connection with the
treatment of mental disorders. The limitation applies to services that are furnished in connection
with the treatment of mental, psychoneurotic, or personality disorders. Thus, for these services,
beneficiaries have greater cost-sharing liability.
Finding(s): We found that in 2003, beneficiary copayments could have been more than double
for the same mental health services based on the beneficiaries’ geographic locations. Carriers
inconsistently applied the “outpatient mental health treatment limitation” (the limitation),
causing these disparities in copayments. In addition, some carriers had incorrectly applied the
limitation to claims for medical management services for beneficiaries diagnosed with
Alzheimer’s disease and related disorders. Over a 4-year period, Medicare carriers overstated
copayments for beneficiaries with Alzheimer’s disease and related disorders by approximately
$27 million.
Recommendation(s): CMS should (1) issue new guidance to carriers regarding the outpatient
mental health treatment limitation and ensure that the limitation is consistently applied among all
carriers and (2) require its carriers to adjust the copayments for beneficiaries who had been
overcharged.
Status: CMS concurred with our recommendations. In response on our 2006 report, CMS
informed us that it planned to issue more precise guidance that would establish policy for
application of the outpatient mental health treatment limitation; create and post educational
material on its Web sites; and, to the extent operationally feasible, require carriers to reopen and
adjust incorrectly processed claims for patients with Alzheimer’s disease and related disorders.
In April 2007, CMS noted that significant information on medical documentation requirements
had been added to its Web site. It also indicated plans to consolidate Web site information for
providers of mental health services with the expectation that providers of mental health services
would meet all applicable requirements. We continue to recommend that CMS implement these
actions.
Report(s):     OEI-09-04-00221; issued 10/06
               OEI-09-04-00220; issued 04/07




Previous Nonmonetary Recommendations                                                         Page 45
Medicare Hospitals

Improve the Availability of Quality-of-Care Data in the Medicare End Stage Renal
Disease Program
Background: Patients with ESRD rely on dialysis treatment to compensate for kidney failure.
In 2000, both OIG and the Government Accountability Office (GAO) issued reports
documenting problems with CMS’s oversight of ESRD facilities. National aggregate data
suggest that dialysis care has improved overall. However, questions remain about the quality of
care provided at some ESRD facilities. To help monitor and improve quality of care, CMS
oversees ESRD facilities through contracts with State survey and certification agencies and
ESRD Networks (Networks). This study assessed the extent to which data were available to
assist Networks in identifying facilities with quality improvement needs.
Finding(s): We found that between 2004 and 2005, although Networks had access to multiple
sources of data about quality of care, each had limitations in assisting Networks to identify
facilities with quality improvement needs. Limitations included lack of facility-specific,
comprehensive, or current clinical performances measures (CPM). CMS had taken action
toward providing a streamlined source of data that could assist Networks in identifying facilities
with quality improvement needs; however, it had not yet been implemented. In 2000, CMS
stated that it was developing a Core Data Set project that would regularly collect facility-specific
data on a comprehensive set of CPMs. CMS faced technical and resource challenges, and the
implementation of the Core Data Set is not complete.
Recommendation(s): CMS should develop facility-specific quality improvement information
and increase its efforts to regularly collect data on all CPMs identified by CMS to address
quality-of-care issues in the ESRD program.
Status: CMS did not indicate whether it concurred or did not concur with our recommendations.
CMS stated that it had made progress in collecting data to improve the quality of care in the
ESRD program and indicated that there were still opportunities for improvement. CMS stated
that steps had been taken to improve quality of care for the ESRD program, including the
development of CPMs, definition of the Core Data Set, and proposed regulations that would
require facilities to electronically submit all CPMs on all ESRD patients. CMS also stated that it
would develop a new electronic Web-based data collection system called Consolidated Renal
Operations in a Web-enabled Network (CROWNWeb), which would consolidate existing data
sources into one system. On April 15, 2008, CMS published final rule [CMS-3818-F] entitled
“Conditions for Coverage for End Stage Renal Disease Facilities,” which established new
conditions that facilities must meet to be certified under the Medicare program. The rule states
that beginning on February 2, 2009, ESRD facilities must electronically collect and report to
CMS on an ongoing basis the administrative data and the CPM data annually for all eligible
ESRD patients via CROWNWeb.
Report(s): OEI-05-05-00300; issued 11/06




Previous Nonmonetary Recommendations                                                         Page 46
Medicare Hospitals

Improve Quality Oversight of Ambulatory Surgical Centers in the Medicare
Program
Background: Ambulatory surgical centers (ASC) are one of the fastest growing settings for
ambulatory surgery in the Medicare program. CMS is responsible for the oversight of care
provided in this health care setting. The quality of oversight is determined by how well an ASC
meets Medicare’s Conditions of Coverage, an established set of minimum health and safety
standards with which ASCs must comply to qualify for Medicare reimbursement. ASCs must
become Medicare certified by a State survey and certification agency or be privately accredited
to show that they meet the Conditions of Coverage. ASCs are free to choose either a State
agency or a private agency through which to become certified.
Finding(s): We found that the number of Medicare ASCs more than doubled from 1990 to 2000
and that major procedures performed within ASCs increased by 730 percent. Medicare’s system
of quality oversight was not sufficient, in that one-third of ASCs certified by State agencies had
not been recertified in 5 or more years when this review was performed in 2000. CMS had done
little to hold State certification agencies and accreditors accountable to the Medicare program
and the public.
Recommendation(s): CMS should determine an appropriate minimum cycle for surveying
ASCs certified by State agencies and hold State agencies and accreditors fully accountable to the
Medicare program for their performance in overseeing ASCs. CMS should ensure that State
agency certification and accreditation strike an appropriate balance between compliance and
continuous quality improvement.
Status: CMS generally concurred with our recommendations. The MMA directed that a new
payment system for ASC services be implemented no later than January 1, 2008. One purpose of
this statute is to encourage quality and efficient care in the most appropriate outpatient setting,
given the rapid spending growth for services and the large variations in the use of services. A
Proposed Rule on the conditions of participation for ASCs, which addresses quality matters, was
published on August 31, 2007. We continue to monitor the status of the rule.
Report(s):     OEI-01-00-00450; issued 02/02




Previous Nonmonetary Recommendations                                                       Page 47
Medicare Hospitals

Improve Oversight of Rural Health Clinics
Background: The Rural Health Clinic (RHC) program, created in 1977 by P.L. No. 95-210, is
intended to increase access to health care for rural medically underserved areas and to expand the
use of mid-level practitioners in rural communities. In 1996, OIG and GAO issued reports that
raised concerns about the inappropriate growth and locations of RHCs. Both organizations
recommended changes to ensure that RHCs are located in areas that would otherwise be
underserved. OIG reexamined this program and issued a follow-up report in 2005.
Finding(s): We found that, between 1990 and 1995, the number of RHCs and associated
Medicare and Medicaid expenditures grew substantially. Four interrelated factors appeared to
drive the growth of RHCs: providing access to care, reimbursement, managed care, and the
certification process. RHCs may have increased access to care in some areas but not in others.
They are paid based on their costs, which are difficult and sometimes impossible to verify or
audit without significant resource expenditure by the Government. As of May 2003, 61 percent
of RHCs were located in areas that were not designated as shortage areas and 39 percent were
located in urbanized areas.
Recommendation(s): CMS, in conjunction with HRSA, should modify the certification process
to increase State involvement and ensure more strategic placement of RHCs. CMS should
expedite the issuance of the regulations under development and take immediate steps to improve
the oversight and functioning of the current cost reimbursement system, with a long term goal of
implementing an improved method of reimbursement.
Status: CMS and HRSA generally concurred with our recommendations. The BBA refines the
requirements for RHC designations and provider-based reimbursement. CMS developed a
program memorandum consolidating and clarifying the policy regarding provider-based and
freestanding designation conditions. Additionally, on February 29, 2008, HHS published a
notice of proposed rulemaking, “Designation of Medically Underserved Populations and Health
Professional Shortage Areas” (73 FR 11232), to revise and consolidate the criteria and processes
for designating medically underserved populations and health professional shortage areas. CMS
published a final rule in 2003 amending, among other things, the criteria for designating a clinic
as an RHC. However, because the date on which CMS published this rule was 3 years beyond
that of the proposed rule, contrary to statutory requirement, CMS determined that the rule needed
to be republished as a notice of proposed rulemaking. The proposed rule is undergoing
departmental review.
Report(s):     OEI-05-94-00040; issued 07/96
               OEI-05-03-00170; issued 08/05




Previous Nonmonetary Recommendations                                                       Page 48
Nursing Homes

Ensure That States Cease Imposing Fees on Nurse Aide Registration
Background: Sections 4201 and 4211 of the OBRA of 1987 include numerous provisions
intended to improve the quality of care in long term care (LTC) facilities, amending sections
1819 and 1919 of the SSA. The OBRA requires that each State establish and maintain a nurse
aide registry. Sections 1819(e)(2) and 1919(e)(2) prohibit States from imposing on individuals
any charges related to registration in the registry.
Finding(s): Based in a 2005 survey of State fees, we found that 24 of the States had imposed
fees related to nurse aide registries, including fees that may be required for initial or continued
placement in the registries. Four States required aides to pay for placement on nurse aide
registries, and others imposed fees on nurse aides as a requirement to work in LTC facilities. We
found that CMS had provided guidance to only the States that had requested it and conducted
limited oversight of States regarding registry fees.
Recommendation(s): CMS should clarify the prohibition on charging fees related to nurse aide
registries, conduct appropriate oversight to prevent States from charging inappropriate fees, and
ensure that States cease imposing on nurse aides fees that violate Federal requirements.
Status: CMS concurred with our recommendations. It indicated that it would work through its
regional offices to notify States found to impose fees in violation of Federal requirements that
such practices must cease and to ensure that proper revenue offset is made to claims for Federal
financial participation. CMS also indicated that it would ensure that all State Medicaid agencies
review a written reminder of the statutory and regulatory provisions that prohibit the imposition
of any charges relating to the nurse aide registry on nurse aides. In February 2006, CMS issued a
Survey and Certification State Medicaid Director Letter in which it stated that States are
prohibited from charging for nurse aide registration. However, during our ongoing work in this
area, we have noted that some States continue to charge fees for nurse aide registration. We
continue to recommend that CMS monitor and act on States’ noncompliance.
Report(s):     OEI-07-05-00070; issued 12/05




Previous Nonmonetary Recommendations                                                       Page 49
Nursing Homes

Ensure That Only Registered Nurse Aides Without Substantiated Findings Are
Registered
Background: Amending sections 1819 and 1919 of the SSA, sections 4201 and 4211 of the
OBRA of 1987 include numerous provisions intended to improve the quality of care in LTC
facilities. Among these provisions is the requirement that each State establish and maintain a
registry of individuals who have completed training and whom the State finds competent to
function as nurse aides. In addition, Federal regulations (42 CFR § 483.13(c)(1)) prohibit LTC
facilities from employing individuals who have had substantiated adverse findings entered into
the State nurse aide registry or who have been found guilty in a court of law of abusing,
neglecting, or mistreating LTC facility residents.
Finding(s): Based on September 2003 data, we found that some States had failed to update
registries with substantiated adverse findings and that some LTC staff reported checking only
their own State’s registries before hiring employees. Many States reported failure to remove
records of inactive nurse aides from registries, and some individuals with substantiated adverse
findings in one State were actively certified in other States. Some States reported using State-
specific practices that could make it more difficult to prevent certain individuals from working as
nurse aides. We also found that some facilities employed nurse aides without the required
registration for longer than the allowed 4 months.
Recommendation(s): CMS should (1) ensure that States update information regarding nurse
aides with substantiated adverse findings timely and remove registry records of nurse aides who
have not performed nursing or nursing-related services for 24 consecutive months, (2) reduce the
potential for nurse aides with substantiated findings to offend again in another State and work
with States to ensure that registry records contain current information on nurse aides, (3) utilize
existing communication channels (e.g., survey and certification processes) to ensure that LTC
facilities comply with Federal regulations that require them to check the nurse aide registries of
other States that they believe will contain information about individuals and to not employ
individuals as nurse aides for more than 4 months without registration, and (4) ensure in other
States that LTC facilities use available resources to ensure that nurse aides with substantiated
adverse findings or criminal backgrounds are not employed.
Status: CMS concurred with our recommendations. In commenting on our report, CMS
indicated that it had developed and disseminated the “Abuse and Neglect Detection and
Prevention Training Manual” to provide surveyors and other reviewers with additional resources
to support the detection and prevention of abuse and neglect. In April 2008, CMS informed us
that it had issued a survey and certification letter (S&C 05-46) to State Survey Agency Directors
requesting that they review the Federal requirements related to the operation and maintenance of
the nurse aide registry. Pursuant to the MMA, in 2005 CMS implemented a 2-year Criminal
Background Check Demonstration for nurse aides in seven States. CMS also informed us that
the background check pilot final evaluation study is targeted for issuance in summer 2008. We
continue to monitor CMS’s actions to ensure that States are in compliance with Federal nurse
aide registry regulations.
Report(s):     OEI-07-03-00380; issued 02/05
               OEI-07-04-00140; issued 07/05



Previous Nonmonetary Recommendations                                                        Page 50
Nursing Homes

Update Nursing Home Nurse Aide Training Curriculum
Background: The OBRA of 1987 mandated that the Nurse Aide Training and Competency
Evaluation Program establish minimum requirements for nurse aide competency.
Finding(s): As of July 2001, 90 percent of surveyed nursing home experts reported that the
medical and personal care needs of today’s nursing home residents have changed since the
implementation of the OBRA. We found that nurse aide training had not kept pace with the
demands of the changing care environment. We also found that teaching methods were often
ineffective, clinical exposure was too short, and in-service training may not be meeting Federal
requirements.
Recommendation(s): CMS should improve nurse aide training and competency program
requirements to ensure that the content of the training curriculum and testing remain relevant to
the current complex resident care needs. We also recommended that CMS continue to work with
States to ensure that training is effective and efficient and that nursing homes comply with
in-service training requirements.
Status: CMS concurred with our recommendations. Following the issuance of our report, CMS
indicated to us that it intended to use a contractor to more extensively document the problem and
develop specific policy and program options for improvement. CMS also indicated that it had
planned to propose adding a requirement to the conditions of participation that nursing homes
document when in-service training is conducted to address the weaknesses identified in nurse
aides’ performance reviews. CMS informed us in April 2008 that it had drafted a report
addressing several areas that the agency had identified for policy improvement and development.
We will continue to monitor CMS’s efforts for improvement in this area.
Report(s):     OEI-05-01-00030; issued 11/02




Previous Nonmonetary Recommendations                                                       Page 51
Medicare Reimbursement

Strengthen Managed Care (Part C) and Prescription Drug (Part D) Benefit
Payment Cycles
Background: Medicare managed care (i.e., Part C) and outpatient prescription drug (i.e.,
Part D) expenditures are processed and paid for by CMS’s central office. In January 2006, CMS
completed a system conversion to the Medicare Advantage Prescription Drug System for
payments to the managed care organizations and for the Medicare prescription drug program.
The Part D program commenced operations in January 2006, and reconciliation of payments is
scheduled to occur 6 months after the close of the plan year. Therefore, FY 2007 ending
September 2007 was the first year of Part D reconciliation. An accrual as of September 2007,
totaling more than $8 billion, was recorded on CMS’s general ledger that included the contract
year reconciliation (CY 2006) and an estimated account receivable covering the FY under audit.
Finding(s): The FY 2007 financial statement audit for the Part D reconciliation process noted
that CMS had not fully developed the new reconciliation process and lacked monitoring controls
to ensure the accuracy of the prescription drug data and drug rebate data submitted by the plans.
The lack of a timely calculation of the estimate resulted in inaccurate reporting within the interim
financial statements. CMS lacked the documentation (policies and procedures) to develop the
FY 2007 Part D estimate, including the estimate related to invalidly rejected prescription drug
data.
For Part C, the audit noted recurring issues with CMS’s oversight of the MAs. Because of the
significant increase in MAs and limited oversight resources, CMS did not readily provide a
complete set of monitoring policies and procedures or properly document the rationale and
sampling approach for the population selected for review. In addition, CMS did not provide
sufficient documentation to evidence ongoing monitoring of MAs, and the Health Plan
Management System used by CMS to monitor MA oversight contained inaccurate information,
which weakened CMS’s ability to properly monitor the MAs.
Recommendation(s): CMS should (1) continue to develop its policies and procedures related to
the development, documentation, and validation of the Part D accrual process; (2) establish
policies for regional office monitoring of the various organizations (MAs, Medicare Advantage-
Prescription Drug, Prescription Drug Plan, etc.) that include tailored procedures to address the
unique requirements or risks of each organization; (3) ensure that policies and procedures for the
monitoring of organizations within the managed care program are consistently implemented and
that monitoring of these organizations is documented in accordance with appropriate standards
and guidelines; (4) develop detailed policies and procedures outlining the minimum
documentation requirements that must be met as part of the monitoring reviews to appropriately
support the review outcome; (5) document the compliance with regulations for the monitoring of
specific chapters and/or elements for organizations; (6) ensure that findings, corrective action
plans, and acceptance of providers’ corrective action plans are provided, reviewed, and released
within the proposed time; and (7) ensure that relevant data are updated timely to provide the
information necessary for adequate management oversight.




Previous Nonmonetary Recommendations                                                        Page 52
Status: CMS concurred with the recommendations made in the FY 2007 financial statement
audit report. The report noted that, during FY 2007, CMS had enhanced the procedures used to
validate and authorize payments for Medicare Part C and the Part D benefits. Enhancements
were made to a number of validation functions, including the Beneficiary Payment Validation,
the Plan Payment Validation, and the monitoring and tracking of payment issues. The report
also noted that CMS had made significant improvements in documenting its determination of
eligibility of organizations during the initial application review.
Report(s):    OAS-17-97-00097; issued 04/98
              OAS-17-98-00098; issued 02/99
              OAS-17-00-00500; issued 02/00
              OAS-17-00-02001; issued 02/01
              OAS-17-01-02001; issued 02/02
              OAS-17-02-02002; issued 01/03
              OAS-17-03-03003; issued 11/03
              OAS-17-04-02004; issued 12/04
              OAS-17-05-02005; issued 11/05
              OAS-17-06-02006; issued 11/06
              OAS-17-07-02007; issued 11/07




Previous Nonmonetary Recommendations                                                   Page 53
Other Medicare and Medicaid Issues

Improve Medicare Information Systems Controls
Background: The Federal Financial Management Improvement Act of 1996 requires Federal
agencies to maintain acceptable accounting systems. Also, the Federal Managers’ Financial
Integrity Act of 1982 requires agencies to develop, maintain, and test their internal controls and
financial management systems and to report any material weaknesses and planned corrective
actions.
Finding(s): In FY 2007, CMS continued to make progress in identifying and addressing
weaknesses in its automated Medicare processing systems. Although our review disclosed no
exploitation of any identified vulnerability, the weaknesses noted could result in direct update
access to Medicare claims data without consistent logging and review. For controls over edit
settings in the Fiscal Intermediary Shared System (FISS), Viable Information Processing
Medicare System (VMS), and Multiple Carrier System (MCS) application systems, the audit
noted exceptions at certain contractors; and workgroup settings for MCS were not correct for
numerous edits resulting in incorrect edit settings at some contractors. The audit noted a lack of
controls with respect to software supplementing the FISS, MCS, and VMS systems. The use of
such programs without the enforcement of strong controls could result in inconsistent and
uncertain claims processing, leading to payment inaccuracies. For the areas of direct update
access to Medicare claims data, control over edit settings in the FISS, VMS, and MCS systems
and controls over the use of supplemental software used to process claims, the audit noted
instances in which CMS’s central office issued guidance and requirements to address internal
control concerns, but the contractors had not implemented the needed controls. Effective
management controls over the use of direct update access to claims, changes to edits within the
three major Medicare application processing systems, and supplemental software programs are
imperative to establishing a reasonable range of assurance over the accuracy of Medicare claims
processing.
Recommendation(s): CMS should (1) establish a process to periodically review and test
contractor reports of employees with direct update access to Medicare claims data; (2) establish
ongoing workgroups to review FISS, MCS, and VMS edits that should be turned on or off;
(3) establish a formal review process to, on a selected and unannounced basis, obtain and review
actual in-use edit settings for the FISS, VMS, and MCS systems running at the contractor sites;
(4) use the results obtained through the review process to identify edit settings not in compliance
with the recommended edit settings suggested by the workgroups; (5) establish reports to
determine the volume of and reasons for claims bypassing the Common Working File (CWF)
application; (6) work with contractors and maintainers of the FISS, MCS, and VMS systems to
ensure that automated adjudication system programs, such as SuperOps and SCF, maintain
complete audit trails; and (7) continue to enhance processes for the recertification of contractor
employee access and the review of violation reports for the FISS, MCS, and VMS.
Status: CMS concurred with the recommendations in the FY 2007 financial statement audit
report. The report noted that, during FY 2007, CMS had worked to establish and document
consistent controls over the use of direct update access to claims data; edits within the FISS,




Previous Nonmonetary Recommendations                                                        Page 54
MCS, and VMS; and the use and control of supplemental software programs. However, we
noted the challenges involved in consistently enforcing these controls over 28 contractor and
13 data center locations, and we encourage CMS to continue its efforts to gain contractor support
for full implementation of these controls.
Report(s):    OAS-17-98-00098; issued 02/99
              OAS-17-00-00500; issued 02/00
              OAS-17-00-02001; issued 02/01
              OAS-17-01-02001; issued 02/02
              OAS-17-02-02002; issued 01/03
              OAS-17-04-02002; issued 12/04
              OAS-17-05-02005; issued 11/05
              OAS-17-06-02006; issued 11/06
              OAS-17-07-02007; issued 11/07




Previous Nonmonetary Recommendations                                                      Page 55
Other Medicare and Medicaid Issues

Improve Centers for Medicare & Medicaid Services Performance Evaluation
Process for Program Safeguard Contractors
Background: The Health Insurance Portability and Accountability Act of 1996
(P.L. No. 104-191), section 202, authorized CMS to contract with entities to fulfill program
integrity functions for the Medicare program and required a competitive process for awarding
contracts. CMS entered into the first contract under this authority in 1999. Entities awarded
such contracts are called program safeguard contractors (PSC). Once under contract, PSCs are
then awarded task orders to carry out specific duties.
Finding(s): We found that performance evaluation reports issued by CMS from 1999 to 2004
contained minimal information about PSC achievements related to detecting and deterring fraud
and abuse under benefit integrity task orders. Because these reports were limited in their
description of the results that PSCs may be achieving, they provided limited information on
which to base task order renewal decisions. We also found that 72 percent of final performance
evaluation reports were issued on time. However, only 5 of 32 final reports were issued
3 months before the task order ended, which is the time by which CMS was required to notify
the PSC whether the contract would be renewed. The unavailability of milestone dates
prevented us from identifying where delays occurred in the evaluation process.
Recommendation(s): CMS should (1) address PSC results in performance evaluation reports
and include quantitative as well as qualitative information, (2) include information about
required fraud and abuse detection and deterrence activities in the reports, (3) ensure that all draft
and final reports are issued on time, and (4) establish a means to track and save evaluation
milestone dates.
Status: In its comments on our report, CMS partially concurred with our recommendations.
CMS disagreed with our first two recommendations regarding what should be addressed in PSC
performance evaluation reports. With regard to the first recommendation, CMS stated that
quantifying results may compromise investigations and create perverse incentives. We note,
however, that our recommendation was not to establish a quota system for performance; rather,
we recommended that CMS include a combination of qualitative and quantitative results
information in the PSC evaluation report. Without this information, it would be difficult to
determine PSC effectiveness. With regard to the second recommendation, CMS stated that
resources sometimes prevented addressing all PSC activities in the evaluation reports. With
regard to the third recommendation, CMS has reevaluated its use of the term “finalized” in the
performance evaluation criteria and the contract renewal process timetable. In reference to the
fourth recommendation, CMS has enhanced its tracking system to track milestone dates that are
not captured by the National Institutes of Health (NIH) database. We continue to recommend
that activities required in PSC task orders be addressed in evaluation reports.
Report(s):     OEI-03-04-00050; issued 03/06




Previous Nonmonetary Recommendations                                                          Page 56
Laboratories

Improve Enrollment and Certification Processes in the Clinical Laboratory
Improvement Amendments Program
Background: The Clinical Laboratory Improvement Amendments of 1988 (CLIA) established
quality standards for all laboratory testing to ensure the accuracy and timeliness of test results.
The CLIA waives the standards for laboratories that use only tests that the Secretary of HHS has
determined have insignificant risk of erroneous results. Laboratories conducting only such
simple tests must apply for a certification of waiver from the Secretary of HHS. Regulations
require that laboratories eligible for a certification of waiver follow the manufacturer’s
instructions when conducting waived tests.
Finding(s): We found that as of July 2000, there were significant vulnerabilities in the CLIA
certification process for laboratories performing waived procedures and provider-performed
microscopy. Many certificates of waiver and provider-performed microscopy laboratories did
not follow manufacturers’ instructions or conducted testing that was beyond the scope of their
certifications. Moderate- and high-complexity laboratories also failed to meet requirements for
waived testing.
Recommendation(s): CMS should provide educational outreach and self-assessment tools to
laboratories, require laboratories applying for certificates of waiver or provider-performed
microscopy to identify which test systems they use, and each year conduct inspections of a
random sample of waived and provider-performed microscopy laboratories to assess compliance
with program requirements.
Status: CMS concurred with our recommendations to decrease vulnerabilities in the CLIA
enrollment and certification processes; however, it noted that resource limitations could affect
implementation. CMS worked collaboratively with the Centers for Disease Control and
Prevention (CDC) on developing a document outlining laboratory practices for waived testing,
which was published in November 2005 in the “Morbidity and Mortality Report.” We
recommend that CMS implement all of our recommendations, including inspections each year of
a random sample of waived and provider-performed microscopy laboratories to assess
compliance with the program requirements.
Report(s):     OEI-05-00-00251; issued 08/01




Previous Nonmonetary Recommendations                                                        Page 57
Prescription Drugs

Provide Additional Guidance to Drug Manufacturers To Better Implement the
Medicaid Drug Rebate Program
Background: Section 1927 of the SSA requires drug manufacturers to enter into and comply
with rebate agreements with the Secretary of HHS for States to receive Federal funds for a
manufacturer’s covered outpatient prescription drugs. The Secretary may also authorize States
to enter into agreements with drug manufacturers directly. In accordance with section 1927 of
the SSA, manufacturers are required to report their AMPs to CMS for each covered outpatient
drug for a base period. The manufacturer is required to report on a quarterly basis the AMP and
the best price for each covered outpatient drug. In our 1992 report, we evaluated the methods
used by selected manufacturers to determine the AMP and the best price and verified the
accuracy of pricing information supplied to CMS by the drug manufacturers. Section 6001 of
the DRA required OIG to review the requirements for, and manner in which, AMPs are
determined under section 1927 of the SSA and recommend appropriate changes by June 1, 2006.
Finding(s): Existing requirements for determining certain aspects of AMPs are not clear and
comprehensive, and manufacturers’ methods of calculating AMPs are inconsistent. OIG’s
previous and ongoing work, which has primarily focused on how manufacturers calculate AMP,
has found that manufacturers interpret AMP requirements differently. Specifically, our findings
demonstrate the need to clarify the definition of retail class of trade and the treatment of
pharmacy benefit manager rebates and Medicaid sales in AMP calculations. In addition, work
related to the use of the AMP by CMS and other agencies highlights the need to consider the
timeliness and accuracy of manufacturer-reported AMPs. Consistent with our findings, industry
groups also emphasized the need to clarify certain AMP requirements. Further, industry groups
raised additional issues related to the implementation of DRA provisions. Because the DRA
expands the use of AMPs and creates new reimbursement policy implications, future errors or
inconsistencies in manufacturers’ AMP calculations could lead to inaccurate or inappropriate
reimbursement amounts as well as rebate errors.
Recommendation(s): CMS should clarify requirements in regard to the definition of retail class
of trade and the treatment of pharmacy benefit manager rebates and Medicaid sales and consider
addressing issues raised by industry groups, such as administrative and service fees, lagged price
concessions and returned goods, the frequency of AMP reporting, AMP restatements, and
baseline AMPs. Also, CMS should issue guidance in the near future that specifically addresses
the implementation of the AMP-related reimbursement provisions of the DRA and encourage
States to analyze the relationship between AMP and pharmacy acquisition cost to ensure that the
Medicaid program appropriately reimburses pharmacies for estimated acquisition costs.
Status: CMS concurred with our recommendations. In July 2007, CMS issued a final rule that
modified the definition of the AMP and appears to increase the transparency of the AMP
calculation. However, as a result of litigation challenging the validity of the new rule, a Federal
court in December 2007 issued an injunction prohibiting CMS from implementing it to the extent
that the rule affects reimbursement rates. Given that OIG audits continue to identify variation
among calculation methods, we continue to recommend that CMS provide oversight to
determine whether methods used to calculate AMPs are consistent among manufacturers.
Report(s):     OAS-06-91-00092; issued 11/92
               OAS-06-06-00063; issued 05/06


Previous Nonmonetary Recommendations                                                       Page 58
Public Health
Health Resources and Services

Improve Health Resources and Services Administration Alert List Practices
Background: The purpose of the Alert List is to safeguard HHS funds by alerting other
agencies to potential risks in awarding grants. The Alert List is posted on the HHS Intranet site
for all agencies that award grants. If an awarding agency has concerns about a grantee because
of inexperience in handling Federal funds, financial instability, inadequate management systems,
a history of poor programmatic performance, or other reasons, the agency may place the grantee
on the Alert List.
Finding(s): We found that, as of 2003, HRSA had not consistently followed Alert List policies.
Specifically, we determined that HRSA did not (1) consistently place grantees on the Alert List,
(2) consistently check the Alert List or accurately document checking it, (3) regularly consult
with other agencies to obtain information about grantees, (4) consistently document certain
monitoring activities for Alert List grantees, (5) provide justification for retaining grantees
whose names appear on the Alert List for more than 2 years, or (6) use the information on the
Alert List to make grant decisions.
Recommendation(s): HRSA should develop methods to ensure that grants officers follow Alert
List policies.
Status: In its comments on our report, HRSA did not indicate whether it concurred or did not
concur with our recommendation. HRSA indicated that the consolidation of its grants
management operations into a single operating unit, with standardized operating procedures and
uniform guidance, would prevent a recurrence of the types of adverse findings identified in the
report. Subsequent to our report, HRSA indicated that it intended to adhere to departmental
guidance on the Alert List and was working closely with grants officers to ensure that Alert List
procedures are followed. However, in July 2007, HRSA was informed that the Department had
suspended the alert system pending a major redesign projected for FY 2008.
Report(s):     OEI-02-03-00011; issued 05/06




Previous Nonmonetary Recommendationst                                                      Page 59
Health Resources and Services

Report Medical Malpractice Cases to the National Practitioner Data Bank
Background: According to an HHS policy directive, issued on October 15, 1990, all settled or
adjudicated HHS medical malpractice cases must be reported to the National Practitioner Data
Bank (NPDB).
Finding(s): We found that, as of October 2004, HHS agencies had failed to report as many as
474 medical malpractice cases to the NPDB. Individual agency underreporting was as follows:
Indian Health Service (IHS), 290 cases; HRSA, 179 cases; and NIH, 5 cases.
This underreporting was caused by a number of factors, including: (1) lost medical malpractice
files; (2) incomplete information in medical malpractice files; (3) a decision by the HHS peer
review entity, the Medical Claims Review Panel, not to identify practitioners who met the
standard of care (a decision that was inconsistent with existing policy); and (4) the failure to
replace a key Program Support Center claims official or to reassign the person’s reporting duties.
Recommendation(s): IHS, HRSA, and NIH should each take steps to (1) implement a
corrective action process that would address unreported cases, (2) improve internal controls
involving file management, and (3) assign staff to assume responsibility for addressing
practitioner questions/complaints and data entry of reports to the NPDB.
Status: There was partial concurrence with our recommendations. Before OIG issued its
October 2005 report, IHS initiated reporting of cases where the standard of care was not met.
HRSA started reporting such cases soon thereafter. At the time of the report, HRSA’s
Administrator indicated that HHS was working to develop a policy on the reporting of cases in
which the standard of care was not met.
As of April 2008, IHS had submitted 205 additional reports of practitioners to the NPDB, HRSA
had submitted 297 reports, and NIH had not submitted any reports. All cases submitted by IHS
and HRSA involved practitioners who did not meet the standard of care. Neither agency had
submitted cases where the standard of care was met. NIH indicated that it would not submit
reports until a revised departmental policy is issued.
Report(s):     OEI-12-04-00310; issued 11/05




Previous Nonmonetary Recommendationst                                                      Page 60
Health Resources and Services

Improve Hospital Reporting to the National Practitioner Data Bank
Background: Section 423 of the Health Care Quality Improvement Act (42 U.S.C. § 11133)
requires that each hospital or health care entity taking a professional review action that adversely
affects the clinical privileges of a physician or dentist for a period of longer than 30 days report
to the NPDB.
Finding(s): We found that, between 1990 and 1993, hospitals may not have been complying
with the reporting requirements of the NPDB and that approximately half of hospitals had never
reported an adverse action to the NPDB.
Recommendation(s): HRSA should more fully encourage hospitals to follow the intent of
section 423 of the Health Care Quality Improvement Act by proposing legislation that would
establish a civil monetary penalty of up to $10,000 for each instance of a hospital’s failure to
report to the NPDB.
Status: HRSA concurred with our recommendations. According to HRSA, it has studied the
compliance with the NPDB reporting requirements and found that the vast majority of hospitals
and other health care entities, specifically managed care entities, would not release the
professional review materials supporting their actions in the absence of clear legal authority
requiring them to do so. HRSA has acknowledged that the existing legislation is inadequate to
force NPDB reporters to reveal information needed to enable audits of reporting compliance. In
December 2007, HRSA informed us that the legislative proposal that it had developed to
establish a civil monetary penalty for each instance of a hospital’s failure to report was
proceeding through Department clearance.
Report(s):     OEI-12-99-00250; issued 07/99




Previous Nonmonetary Recommendationst                                                        Page 61
Health Resources and Services

Improve Monitoring of Ryan White CARE Act Grantees and Subgrantees
Background: The Ryan White Comprehensive AIDS Resources Emergency Act (P.L.
No. 101-381) was passed in 1990 and reauthorized in 1996 and 2000. In FY 2001,
$597.3 million was provided under Title I and $977.4 million under Title II. Congress enacted
the Ryan White HIV/AIDS Treatment Modernization Act in 2006. Title I provides emergency
relief grants to cities disproportionately affected by HIV/AIDS. Title II provides grants to States
to improve the organization of HIV/AIDS-related health and support services. States distribute
Title II (P.L. No. 109-415) funds to subgrantees.
Finding(s): We found that, in 2000, Title I and Title II project officers had not adequately
monitored sampled grantees (e.g., progress reports were missing, monitoring visits were not
conducted, or grantee applications were not used as management tools). HRSA provided limited
support to project officers to systematically monitor grantees (e.g., little guidance/training, lack
of corrective action plans, high staff turnover, or minimal coordination). Grantees’ monitoring
of subgrantees was limited (75 percent of the sampled grantees did not have comprehensive
documentation to demonstrate that they were monitoring subgrantees).
Recommendation(s): HRSA should (1) specify and enforce standards and policies regarding
how project officers should monitor grantees, (2) address ongoing training of project officers,
(3) standardize a corrective action process, (4) increase the number of site visits, (5) improve
project officer continuity and coordination, (6) set standards for grantees’ monitoring of
subgrantees, (7) require grantees to report how they monitor subgrantees, and (8) increase efforts
to monitor grantees’ oversight of subgrantees.
Status: HRSA concurred with our recommendations and indicated that significant
administrative changes had occurred since the studies had been conducted. According to
information from HRSA, it had consolidated its grants management offices, relocated most
Title II monitoring responsibilities from regional offices to headquarters, and redefined the
Office of Field Operations as the Office of Performance Review. In March 2008, HRSA
reported that it had taken steps to implement our recommendations, including enhanced training
for project officers, development of a site visit protocol for onsite monitoring, and increasing the
number of grantee site visits. While recognizing these efforts, we continue to recommend that
HRSA implement the remaining recommendations, including improving project officer
continuity and coordination and standardizing the corrective action process for grantee oversight.
Report(s):     OEI-02-01-00640; issued 03/04
               OEI-02-01-00641; issued 03/04




Previous Nonmonetary Recommendationst                                                        Page 62
Food and Drug Safety

Strengthen Food and Drug Administration Oversight of Clinical Investigators
Background: To ensure the quality and integrity of data submitted to FDA and to protect the
rights and welfare of human subjects, FDA’s bioresearch-monitoring program inspects clinical
investigators involved in the development and testing of new drugs, medical devices, and
biologicals. In most cases, these inspections occur after clinical work is complete. FDA staff
from the Office of Regulatory Affairs conduct onsite inspections as part of the agency’s review
of applications for experimental products.
Finding(s): We found that, between 1995 and 1998, in general, oversight of clinical
investigators by sponsors, institutional review boards (IRB), and FDA was limited and
problematic. We found that data integrity concerns, rather than human subject protections, drove
FDA’s oversight of clinical investigators and that the bioresearch-monitoring program lacked
clear and specific guidelines.
Recommendation(s): FDA should define cross-center goals for the bioresearch-monitoring
program and develop criteria to determine whether the program is achieving these goals. In
addition, FDA should develop internal guidance on the thresholds that violations must meet to
justify disqualifying a clinical investigator from receiving investigational products.
Status: In its comments on our report, FDA did not indicate whether it concurred or did not
concur with our recommendations. Subsequent to the issuance of our report, FDA indicated that
it had completed a number of activities to strengthen IRB oversight and acknowledged that
efforts were ongoing. In July 2004, FDA issued a proposed rule to require IRBs to register at
sites maintained by HHS (69 FR 40556.) In 2003 and 2004, the Office for Human Research
Protections, partnering with FDA and other Federal agencies and departments, sponsored
national and regional training conferences for IRBs, clinical investigators, clinical staff, and
institutional officials on good clinical practice and human subject protection issues. In June
2006, FDA established the Human Subject Protection/Bioresearch Monitoring Modernization
Initiative to strengthen its oversight and protection of human subjects in clinical trials and the
integrity of the resulting data. In April 2008, FDA informed us that it had established several
working groups to examine the process for disqualification and identify “best practices” for
enhanced communications between the Centers which conduct the studies and field
investigations in FDA’s Office of Regulatory Affairs. FDA also indicated that it had developed
several draft guidance for sponsors, clinical investigators, and IRBs to provide advice on a range
of topics such as information sharing, data retention, and informed consent. While recognizing
these efforts, we continue to recommend that FDA publish guidance for justifying disqualifying
clinical investigators.
Report(s):     OEI-05-99-00350; issued 06/00




Previous Nonmonetary Recommendationst                                                      Page 63
Food and Drug Safety

Update and Maintain an Accurate New Drug Code Directory
Background: Section 3 of the Drug Listing Act of 1972, (P.L. No. 92-387), amended the Food,
Drug, and Cosmetic Act, requiring drug firms engaged in manufacturing, preparing, propagating,
compounding, or processing drugs to report all drug products to Food and Drug Administration
(FDA). Drug products are uniquely identified and reported using a three-segment number, called
the National Drug Code (NDC), which is a universal product identifier for human drugs. FDA
assigns the first segment and drug firms assign the other two segments. It inputs the full NDC
number and information submitted as part of the listing process into a database known as the
Drug Registration and Listing System. FDA extracts information from this database several
times a year and publishes that information in the NDC Directory. As drug firms introduce a
new drug product or discontinue a product, they must report the complete NDC and associated
information to FDA as part of the drug-product listing process.
Finding(s): We found that the Directory was neither complete nor accurate. An estimated 9,187
prescription drug products were missing from the list, while another 5,150 had not cleared the
listing process. Further, an estimated 34,257 drug products listed were no longer on the market
or were listed in error. Problems with the directory resulted primarily from drug firms’ failure to
report when drugs are placed on or taken off the market and their failure to provide sufficient and
accurate information to complete the listing process.
Recommendation(s): FDA should finalize the draft listing instructions referenced on its Web
site, provide greater control over the assignment of NDCs, continue efforts to implement
electronic submission of listing forms by firms, implement a mechanism to routinely identify
drug product omissions and inaccuracies, resolve the status of currently pending drug product
listings, enhance communication with drug firms to facilitate accurate and complete reporting of
drug products, and identify and take appropriate action against drug firms that consistently fail to
list drug products and update information.
Status: FDA concurred with our recommendations and requested access to our data files to
follow up on identified problems. In comments on our report, FDA delineated a number of
planned initiatives to improve the directory’s completeness and accuracy, such as conversion to
an electronic listing system for use by drug firms. Subsequent to our report, FDA indicated that
it had updated the draft listing instructions referenced on its Web site. It published a proposed
rule, 71 FR 51276, on August 29, 2006, with the intent to clarify listing requirements, enhance
control of the drug establishment registration and drug-listing process, and improve data
accuracy and completeness. FDA also stated that in December 2006 it held a public hearing on
the proposed rule that would change the NDC system. In April 2008, FDA informed us that the
proposed rule is expected to be published in late 2008 or early 2009. The agency also indicated
that it had made progress in developing the new electronic registration and listing system and
expected to begin fielding it in late 2008. We will continue to monitor the status of the proposed
rulemaking.
Report(s):     OEI-06-05-00060; issued 08/06




Previous Nonmonetary Recommendationst                                                        Page 64
Food and Drug Safety

Improve FDA’s Postmarketing Oversight of Drugs
Background: FDA requires all new drugs to undergo clinical testing to demonstrate their safety
and efficacy prior to approval for sale in the United States. FDA has the authority to require
postmarketing study commitments in certain situations (e.g., accelerated approval), but most
postmarketing study commitments are requested by FDA and agreed to by drug applicants. The
Food and Drug Administration Modernization Act of 1997 provided FDA with new authorities
for monitoring certain types of postmarketing studies. Regulations at 21 CFR § 313.81(b)(2)(vii)
require that drug applicants submit annual status reports (ASR) with information on the status of
certain postmarketing studies. Reviewers within FDA’s Center for Drug Evaluation and
Research are charged with validating the accuracy of these reports.
Finding(s): We found that, between FYs 1990 and 2004, 48 percent of new drug applications
had at least one postmarketing study commitment. We identified vulnerabilities that raised
concerns that FDA was not able to readily determine whether or how timely postmarketing study
commitments were progressing toward completion. We found that about one-third of ASRs
were missing or incomplete and that they contained information that was of limited utility. We
also found limitations associated with the management information system for monitoring
postmarketing study commitments. Further, we found that monitoring postmarketing study
commitments was not a top agency priority.
Recommendation(s): FDA should instruct drug applicants to provide additional, meaningful
information in their ASRs, improve the management information system for monitoring
postmarketing study commitments, ensure that postmarketing study commitments are being
monitored, and ensure that ASRs are being reviewed.
Status: In its comments on our report, FDA partially concurred with our recommendations. It
disagreed with our finding that it could not readily identify whether and how timely
postmarketing study commitments are progressing toward completion. It concurred with our
recommendations to improve the management information system for monitoring postmarketing
study commitments and to ensure that postmarketing study commitments were being monitored
and that ASRs were validated. Subsequent to our report, FDA informed us that it had efforts
underway to enhance its postmarketing study commitment database and reporting capabilities;
trained its review division staff on ASR validation procedures; standardized the process by
which postmarketing study commitments were requested and reviewed; and hired contractors to
conduct a thorough analysis of the postmarking commitment process to gain greater internal
consistency regarding how the agency requires, requests, facilitates, and reviews postmarketing
study commitments. FDA also informed us that in February 2006, it had issued industry
guidance to describe in greater detail the content, form, and timing of postmarketing reports and
in July 2006 enhanced its database to include new functionalities and improvements. The FDA
Amendment Act of 2007, section 921, added a requirement for FDA to review the entire backlog
of postmarketing safety commitments on an annual basis to determine which commitments
require revision or should be eliminated and to report to Congress on these determinations. In
April 2008, FDA informed us that it had prepared a report to Congress on postmarketing safety




Previous Nonmonetary Recommendationst                                                     Page 65
commitments, which was in the clearance process. Although we acknowledge FDA’s efforts, we
continue to recommend that FDA improve its management information system for monitoring
postmarking study commitments and ensure that ASRs are being validated.
Report(s):    OEI-01-04-00390; issued 06/06




Previous Nonmonetary Recommendationst                                              Page 66
Children, Families, and Aging
Administration on Aging

Ensure That States’ Cost-Sharing Practices Comply With Older Americans Act
Requirements and Improve Quality of Data
Background: In 2000, amendments to the OAA allowed States to implement cost-sharing for
certain OAA services. The AoA defines cost sharing as a method of requiring a recipient to
share in the cost of the service received. The amendments include a number of requirements that
are intended to protect low-income older individuals’ access to services.
Finding(s): We found that, as of March 2005, States’ implementation of cost sharing had been
limited. Twelve States had implemented cost sharing for at least one OAA service in at least one
part of the State. None of these States had implemented cost sharing for all allowed OAA
services. AoA had provided limited guidance to States about implementing cost sharing. States
had not implemented cost sharing in accordance with the OAA requirements designed to protect
low-income older individuals’ access to services. Also, AoA’s participation data could not be
used to determine the impact of cost sharing on participation, primarily because States reported
participation data in the National Aging Program Information System/State Program Reports
(NAPIS/SPR) differently.
Recommendation(s): AoA should ensure that States’ cost-sharing practices comply with OAA
requirements, provide additional guidance to States about cost sharing, and improve the quality
of its data so that any effects of cost sharing can be determined.
Status: In its comments on our report, AoA partially concurred with our recommendations.
AoA indicated that it had taken several actions, including holding senior agency staff meetings
with regional administrators to review OAA cost-sharing requirements and establishing technical
assistance and guidance for State Units on Aging. AoA did not concur with the recommendation
to improve the quality of the NAPIS/SPR data, noting that it had made several improvements to
these data, such as developing a software reporting structure and training manual. Despite these
improvements, our work did indicate that States varied in their reporting of data. Given that
these data are essential for cost sharing and agency performance measurements, we continue to
recommend that AoA improve the quality of participation data.
Report(s):    OEI-02-04-00290; issued 09/06




Previous Nonmonetary Recommendationst                                                    Page 67
Children, Youth, and Family Services

Improve Methods of Recruiting Foster Parents
Background: ACF has regulatory oversight of the Title IV-E Foster Care program, an
entitlement program designed to assist States in covering the costs for children in foster care by
providing States with unlimited matching funds for children who meet income eligibility and
other program requirements.
Finding(s): We found that, as of 1999, recruitment methods were general in nature and did not
focus on finding foster parents for children with special needs. Moreover, more could be done to
effectively use participating foster parents for this purpose, as they themselves may be the most
effective recruitment tool. Both recruitment and retention efforts were hampered by a negative
public image of foster care. We also found that foster parents wanted more caseworker support
and help in obtaining necessary services (e.g., medical and dental services for children in their
care). States were unable to measure the success of their recruitment and retention methods.
Recommendation(s): ACF and State foster care program managers should collaborate with
national organizations to promote more positive media coverage of foster care. ACF should
enhance information sharing and assessment of recruitment efforts. ACF should provide States
with guidance focused on enhancing the effectiveness of States’ recruitment efforts. In addition,
to the extent that resources are available, ACF should provide technical support to assist States in
improving retention through the (1) development of outcome-based retention strategies to
determine why families choose not to continue fostering, (2) development of data-tracking tools
to collect retention information, (3) establishment of benchmarks and performance indicators,
and (4) collection of retention data.
Status: Although ACF concurred with our findings and recommendations, it did not initially
indicate how it planned to address them. ACF noted that States may use some Federal funds for
child care and respite care services. In March 2008, ACF reiterated to us its commitment to
provide technical assistance to States and Tribes to facilitate foster parent recruitment and
provide information regarding collaboration at the national level. ACF also informed us that it
had addressed OIG’s recommendation to collaborate with national organizations to promote
more positive media coverage of foster care and had partnered with organizations to bring
attention to National Foster Care Month. We continue to recommend that ACF implement the
remaining recommendations, including providing States with guidance focused on effective
recruitment efforts and providing technical assistance to States to improve the retention of foster
parents.
Report(s):     OEI-07-00-00600; issued 05/02




Previous Nonmonetary Recommendationst                                                        Page 68
Departmentwide and Cross-Cutting
Issues

Improve Financial Analysis and Reporting Processes
Background: The Government Management Reform Act of 1994 requires that many Federal
agencies, including HHS, prepare annual financial statements. Government Auditing Standards
and Office of Management and Budget (OMB) Bulletin 07-04, “Audit Requirements for Federal
Financial Statements,” provide auditors with guidance regarding how to audit and report on the
Federal financial statements. OMB Bulletin A-127 requires that financial statements be the
culmination of a systemic accounting process. The statements are to result from an accounting
system that is an integral part of a total financial management system containing sufficient
structure, effective internal control, and reliable data.
Finding(s): The FY 2007 financial statement audit noted that HHS continued to have serious
internal control weaknesses in its financial management systems and reporting processes.
Substantial manual procedures, numerous adjusting entries, and untimely and incomplete
reconciliations and accrual processes hindered the Department’s ability to produce timely and
reliable financial statements. HHS’s financial management systems did not substantially comply
with Federal financial management systems requirements or the U.S. Government standard
General Ledger at the transaction level.

In addition, HHS lacked sufficient controls over its accounting and business processes to ensure
that budgetary transactions were properly recorded, monitored, and reported. Management
routinely used high-level analysis to develop adjustments and to derive budgetary balances for
financial reporting purposes. Improved procedures are needed to ensure accurate reporting of the
status of budgetary resources.

Furthermore, information technology general control weaknesses in both the design and the
operation of key controls were noted. Of particular concern was the lack of pervasive
information technology security standards for areas such as security settings on platforms,
policies regarding the control and use of passwords, and policies regarding control over changes
to applications.

Recommendation(s): HHS should continue to develop and refine its financial reporting systems
and processes. HHS should fully utilize the built-in system functionality designed to perform
complete transaction processing and financial reporting in compliance with Federal financial
reporting requirements. HHS should also update the documentation of policies and procedures
for the preparation of the financial statements and ensure compliance through a monitoring
process. In addition, HHS should establish appropriate reconciliation policies and procedures.

HHS should implement departmentwide procedures requiring the periodic review of undelivered
orders and requiring the recording of recoveries in accordance with Federal accounting
standards. HHS should also implement a commitment accounting function within the current
General Ledger system to enable automated reconciliation of obligations and implement the
projects module of the Unified Financial Management System (UFMS) across HHS to ensure
that obligations are recorded in a timely manner through automated processes.

Previous Nonmonetary Recommendationst                                                     Page 69
HHS should develop overall HHS platform configuration security standards for all operating
platforms and databases, following the guidance issued by the National Institute of Standards and
Technology, for all components and ensure the acceptance and implementation of the standards.
HHS should also enhance policies and procedures to ensure that system administrators perform
periodic reviews of access authorizations for all applications and that a process exists for
communicating the names of terminated employees to administrators for their timely removal.
Additionally, HHS should maintain effective program change controls processes for all
applications to limit the risk of unauthorized changes to the production systems.
Status: In the FY 2007 Agency Financial Report (AFR), issued in November 2007, HHS
acknowledged that it continued to have internal control weaknesses in its financial systems and
processes, budgetary accounting, and financial management information technology systems. To
facilitate resolution of financial systems and processes and budgetary accounting weaknesses,
HHS indicated that it planned to continue efforts to improve financial management processes and
to fully utilize the UFMS functionality and control capabilities. In the Management’s Discussion
and Analysis section of the FY 2007 AFR, HHS stated that the NIH Business System was fully
implemented in June 2007, UFMS global would be fully implemented in 2008, and the CMS
implementation would be fully operational by 2011. In addition, HHS indicated that it would be
formulating entitywide goals for correcting the information technology weakness.
Report(s):    OAS-17-98-00015; issued 04/98              OAS-17-02-00001; issued 01/03
              OAS-17-98-00015; issued 01/99              OAS-17-04-00001; issued 12/04
              OAS-17-99-00002; issued 02/00              OAS-17-05-00001; issued 11/05
              OAS-17-01-00001; issued 02/01              OAS-17-06-00001; issued 11/06
              OAS-17-00-00014; issued 02/02              OAS-17-07-00001; issued 11/07




Previous Nonmonetary Recommendationst                                                     Page 70
Departmentwide and Cross-Cutting Issues

Strengthen State Protections for Persons With Disabilities in Residential Settings
Background: Several HHS operating divisions fund programs or services that play a role in
protecting persons with disabilities from abuse or neglect. For facilities receiving Medicare or
Medicaid funds, including intermediate care facilities for persons with mental retardation,
nursing homes, and psychiatric facilities, CMS has established conditions of participation
requiring that residents and patients be protected from abuse or neglect. ACF and the Substance
Abuse and Mental Health Services Administration (SAMHSA) provide States with grants to
establish protection and advocacy systems for investigating allegations of abuse or neglect.
Also, FDA oversees the regulation of medical devices, including physical restraints, and receives
information on deaths that occurred during the use of restraints.
Finding(s): We found that, between 1999 and 2000, approximately 90 percent of persons with
disabilities resided in facilities that are not subject to CMS oversight and relied solely on
protections offered by State systems to identify, investigate, and resolve reports of abuse or
neglect, including the misuse of restraints and seclusion. The level of protection provided by
State systems varied widely. Limited Federal standards, partly because of HHS’s limited
statutory authority to set requirements for many facilities and homes, have left persons with
disabilities more vulnerable in residential settings in which State systems were not well
developed. Also, HHS was at a disadvantage in identifying systemic problems because it
received limited information on occurrences of abuse or neglect.
Recommendation(s): CMS, ACF, SAMHSA, and FDA should work cooperatively to provide
information and technical assistance to States that would (1) improve the reporting of potential
abuse or neglect of persons with disabilities, (2) strengthen investigative and resolution
processes, (3) assist in analyzing incident data to identify trends indicative of systemic problems,
and (4) identify the nature and causes of incidents to prevent future abuse.
Status: CMS, ACF, SAMHSA, and FDA concurred with our recommendation to work
cooperatively and provide information and technical assistance to States. Each agency detailed
actions that it was taking or planned to take to improve safeguards. For example, SAMHSA
noted that it had established a grant program, initiated in FY 2001, to identify effective
alternative practices (e.g., training efforts) to reduce restraint and seclusion practices and that it
would promote the application of the findings from these grants. We plan to perform follow-up
work in FY 2009 to determine whether appropriate action has been taken on our
recommendations.
Report(s):     OAS-01-00-02502; issued 05/01




Previous Nonmonetary Recommendationst                                                           Page 71
Departmentwide and Cross-Cutting Issues

Improve Safeguards for Long Term Care Residents
Background: Under Federal regulations, residents of nursing homes and other LTC facilities
have the right to reside in safe and secure environments, free from abuse and neglect. There is
no Federal requirement to conduct criminal background checks of current or prospective
employees of nursing facilities apart from those specifically addressing nurse aides.
Finding(s): We found that, between 1996 and 1998, there was no assurance that nursing home
staff who could place elderly residents at risk of abuse or neglect were systematically identified
and excluded from employment. Not all States required criminal background checks of
applicants or onboard staff; however, the States requiring background checks believed that they
had reduced the instances of abuse. Screening nurse aide registries can also be an effective tool
in identifying known abusers, but in one State reviewed, the registry did not always record
findings of abuse and convictions. Additionally, although use of the OIG exclusion list could
make screening more effective, none of the nursing homes surveyed in six States was aware of
this database or its availability on the Internet.
Recommendation(s): CMS should consider establishing Federal requirements and criteria for
performing criminal checks and developing a national abuse registry or expanding the current
State registries to include all workers in facilities receiving Federal reimbursement.
Status: CMS concurred with our recommendations and stated in its comments that it planned or
had taken some actions to improve safeguards for LTC residents in nursing homes. We note that
the MMA of 2003 established the framework for a program to evaluate national and State
background checks on direct patient access employees of LTC facilities or providers; the
program, which was to include up to 10 States, will identify efficient, effective, and economical
procedures with which LTC facilities or providers can conduct background checks. In April
2008, CMS informed us that seven States, representing a mix of rural and urban areas and
including diverse populations, had participated in its background check pilot program. CMS
informed us that the background check pilot final evaluation study is targeted for issuance in
summer 2008. We will monitor how CMS uses the study results in its efforts to implement our
recommendation.
Report(s):     OAS-12-97-00003; issued 09/98




Previous Nonmonetary Recommendationst                                                       Page 72
Acronyms

ACF           Administration for Children and Families
AMP           Average Manufacturer Price
AoA           Administration on Aging
ASC           Ambulatory Surgical Center
ASP           Average Sales Price
AWP           Average Wholesale Price
BBA           Balanced Budget Act of 1997
BBRA          Balanced Budget Refinement Act of 1999
CC            Commissioned Corps
CMS           Centers for Medicare & Medicaid Services
CY            Calendar Year
DME           Durable Medical Equipment
DMEPOS        Durable Medical Equipment, Prosthetics, Orthotics and Supplies
DRA           Deficit Reduction Act of 2005
DRG           Diagnosis-Related Group
ESRD          End-Stage Renal Disease
FDA           Food and Drug Administration
FUL           Federal Upper Payment Limits
FY            Fiscal Year
GAO           Government Accountability Office
HHS           Department of Health and Human Services
HRSA          Health Resources and Services Administration
IHS           Indian Health Service
LTC           Long Term Care
MA            Medicare Advantage
MMA           Medicare Prescription Drug, Improvement, and Modernization Act of 2003
NIH           National Institutes of Health
NPDB          National Practitioner Data Bank
OAA           Older Americans Act
OBRA          Omnibus Budget Reconciliation Act of 1981
OBRA          Omnibus Budget Reconciliation Act of 1986
OBRA          Omnibus Budget Reconciliation Act of 1987
OBRA          Omnibus Budget Reconciliation Act of 1989
OBRA          Omnibus Budget Reconciliation Act of 1990
OBRA          Omnibus Budget Reconciliation Act of 1993
OIG           Office of Inspector General
P.L.          Public Law
PPS           Prospective Payment System
SCHIP         State Children’s Health Insurance Program
SSA           Social Security Act
TBD           To Be Determined
UPL           Upper Payment Limit




Previous Nonmonetary Recommendations                                                   Page 73
